No. 21-________
IN THE

Supreme Court of the United States
___________________
RAYMOND GARDNER,

Petitioner,

v.
MATTHEW T. MGLEJ, INDIVIDUALLY,

Respondent.

___________________
On Petition for a Writ of Certiorari
To the United States Court of Appeals
for the Tenth Circuit
___________________
PETITION FOR A WRIT OF CERTIORARI
___________________

Frank D. Mylar

Counsel of Record

MYLAR LAW, P.C.
2494 Bengal Blvd.
Salt Lake City, Utah 84121
Phone: (801) 858-0700
office@mylarlaw.com

Counsel for Petitioner

i
QUESTION PRESENTED

In 2008, Utah passed a failure-to-identify statute,
Utah Code Ann. § 76-8-301.5(1), which made it a crime
for a person subject to a Terry stop to refuse to disclose
his name when asked to do so by a police officer. In
2011, the petitioner arrested the respondent for
failure to identify himself when he refused to hand
over identification during a Terry stop. At the time, no
court had interpreted 76-8-301.5(1) to answer
whether the requirement that a person must state his
name was violated when a person declined to hand
over an identification document.
The question presented is: “Whether it was clearly
established in 2011 that an arrest under Utah Code
Section 76-8-301.5(1) for refusal to hand over an
identification document violates the Fourth
Amendment.”

ii
PARTIES TO THE PROCEEDING

Petitioner is Raymond Gardner, a Garfield
County, Utah, Deputy. Respondent is Matthew T.
Mglej. Garfield County did not appeal the district
court ruling and is not a part of this proceeding.
PROCEEDINGS DIRECTLY
RELATED TO THIS CASE

•

Mglej v. Garfield County, et al., 2:13-cv-00713-CW-

•

Mglej v. Gardner, No. 19-4015

•

Mglej v. Garfield County, No. 15-4002

DBP
In the United States District Court for the
District of Utah.
Qualified immunity denied per memorandum
decision and order entered January 11, 2019.

In the United States Court of Appeals for the
Tenth Circuit.
Opinion entered September 9, 2020.
In the United States Court of Appeals for the
Tenth Circuit.
Order dismissing appeal entered January 13,
2015.

iii
TABLE OF CONTENTS

Question Presented ...................................................... i
Parties to the Proceeding ............................................ ii
Proceedings Directly Related to this Case ................. ii
Table of Contents ....................................................... iii
Table of Authorities .................................................... v
Decisions Below ........................................................... 1
Jurisdiction .................................................................. 1
Pertinent Constitutional and
Statutory Provisions .............................................. 1
Statement of the Case ................................................. 3
Reason for Granting the Petition ............................... 6
It was not clearly established in 2011 that an
officer lacked probable cause to arrest a
suspect for failure to disclose his name
when the officer asked for the person’s ID
during a Terry stop and the person refused
to provide it. ........................................................... 6
Conclusion ................................................................. 13

iv
PETITION’S APPENDIX
TABLE OF CONTENTS

United States Court of Appeals, Tenth Circuit
Opinion in 19-4015
Issued September 9, 2020 ......................................... 1a
United States District Court, District of Utah
Central Division
Memorandum Decision and Order
in 2:13-CV-00713-CW-DBP
Issued January 11, 2019 ......................................... 34a
United States Court of Appeals, Tenth Circuit,
Order on rehearing in 19-4015
Issued on October 26, 2020 ..................................... 71a

v
TABLE OF AUTHORITIES
Cases

Carroll v. Carman,
574 U.S. 13 (2014).................................................. 7

City and County of San Francisco v. Sheehan,

135 S.Ct. 1765 (2015)......................................... 7, 8

City of Escondido, Cal. v. Emmons,

139 S.Ct. 500 (2019)........................................... 7, 8

Heien v. North Carolina,

135 S. Ct. 530 (2014)...................................... 11, 12

Hiibel v. Sixth Judicial District Court,

542 U.S. 177 (2004)...................................... 5, 9, 10

Kisela v. Hughes,

138 S.Ct. 1148 (2018)............................................. 7

Malley v. Briggs,

475 U.S. 335 (1986).............................................. 10

Mocek v. City of Albuquerque,

813 F.3d 912 (10th Cir. 2015) ............................. 11

Mullenix v. Luna,

577 U.S. 7 (2015).................................................... 7

Plumhoff v. Rickard,
572 U.S. 765 (2014)................................................ 7

Reichle v. Howards,

566 U.S. 658 (2012)................................................ 7

Stanton v. Sims,

571 U.S. 3 (2013).................................................... 7

Symonette v. City of N. Las Vegas,

449 F. App’x 683 (9th Cir. 2011) ......................... 11

vi

United States v. Hensley,

469 U. S. 221 (1985)............................................... 9

White v. Pauly,
37 S. Ct. 548 (2017)............................................ 7, 8

Wood v. Moss,

572 U.S. 744 (2014)................................................ 7

Ziglar v. Abbasi,

137 S. Ct. 1843 (2017)............................................ 8

Statutes

28 U.S.C. § 1254 .......................................................... 1
28 U.S.C. § 1291 .......................................................... 1
28 U.S.C. § 1331 .......................................................... 1
42 U.S.C. § 1983 ...................................................... 2, 4
Utah Code Ann. § 76-8-301.5....................... i, 2, 5, 6, 8
Utah Code Ann. § 77-7-15................................... 2, 4, 5
Constitutional Provisions

U.S. Const. amend. IV ................................................ 1

1

DECISIONS BELOW

The opinions of the United States Court of Appeals
for the Tenth Circuit, App. 1a–33a, is reported at 974
F.3d 1151 (10th Cir. 2020).
The opinion of the United States District Court for
the District of Utah, App. 34a–70a, is reported at 2019
U.S. Dist. LEXIS 5799 (D. Utah 2019).
JURISDICTION

The district court had jurisdiction under 28 U.S.C.
§ 1331. The Tenth Circuit had appellate jurisdiction
under 28 U.S.C. § 1291 and filed its opinion on
September 9, 2020. The Tenth Circuit denied
Petitioner’s petition for rehearing through its Order of
October 26, 2020. This Court has jurisdiction under
28 U.S.C. § 1254(1).
PERTINENT CONSTITUTIONAL
AND STATUTORY PROVISIONS

The Fourth Amendment
Constitution provides:

to

United

States

The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no warrants shall issue, but
upon probable cause, supported by oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.

2
42 U.S.C. § 1983 provides, in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State . . ., subjects, or causes to be subjected,
any citizen of the United . . . to the deprivation
of any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable to
the party injured . . . .
At the time of the arrest in this case, Utah Code
Ann. § 76-8-301.5(1) provided that it is a crime for
a person to fail
to disclose identity if during the period of time
that the person is lawfully subjected to a stop as
described in Section 77-7-15:
(a) a peace officer demands that the person
disclose the person’s name;
(b) the demand described in Subsection (1)(a) is
reasonably related to the circumstances
justifying the stop;
(c) the disclosure of the person’s name by the
person does not present a reasonable danger of
self-incrimination in the commission of a crime;
and
(d) the person fails to disclose the person’s name.
Utah Code Ann. § 77-7-15 in turn provides:
A peace officer may stop any individual in a
public place when the officer has a reasonable
suspicion to believe the individual has
committed or is in the act of committing or is
attempting to commit a public offense and may
demand the individual's name, address, date of

3
birth, and an explanation of the individual's
actions.
STATEMENT OF THE CASE

Petitioner Raymond Gardner is the only police
officer in Boulder, Utah, which is an extremely rural
town with a population of about 200 located in
southern Utah.
On August 8, 2011, Gardner received a call from
dispatch that twenty dollars was missing from of the
local gas station’s till. Gardner called the gas station
and spoke to the employee who reported the theft to
find out what happened. The employee provided a
description of the person who she believed had stolen
the twenty dollars that closely matched respondent
Mglej. Gardner had encountered Mglej a few days
earlier and knew where Mglej was staying. Gardner
went to the home where Mglej was staying, knocked
on the door, and asked to speak with Mglej outside,
calling him by his first name, “Matthew or Matt.”
Mglej voluntarily walked outside to speak to
Gardner. Gardner explained to Mglej that there was
missing money from the gas station’s till and that he
was a suspect. Mglej denied taking the money.
Gardner then asked Mglej for his ID. Gardner told
Mglej that he needed to fill out a report about the
reported theft and that he needed some basic
information that would be contained on an ID to
complete the report. When Mglej declined to give the
deputy his ID, Gardner placed Mglej under arrest.
Gardner placed Mglej in handcuffs, and drove
them both to his house, so he could change into his
uniform before the ninety-five-mile drive to the jail. At

4
Gardner’s house, Mglej complained that the handcuffs
were too tight. Gardner attempted to loosen them, but
was unable to do so without using tools from his
garage.
After removing the malfunctioning handcuffs and
placing different ones on Mglej, Gardner proceeded to
drive them both to the jail. On the way there, Gardner
received a call that no money was actually missing
from the till at the store. Gardner still took Mglej to
jail and booked him on two charges – “Obstructing
Justice,” and “failure to disclose identity.” A judge
approved Mglej’s continued detention and set bail.
Three days later he was released and hitchhiked back
to Boulder. The charges were later dropped.
Mglej then sued Gardner under 42 U.S.C. § 1983.
Mglej claimed that Gardner violated his Fourth
Amendment rights in three ways: by arresting him
without probable cause, by using excessive force in
applying the handcuffs, and by allegedly initiating a
malicious prosecution against him.
The United States District Court for the District of
Utah denied summary judgment for Gardner. As it
relates to Mglej’s illegal arrest claim, which is the sole
issue on which Gardner is seeking review before this
Court, the district court held that Gardner was not
entitled to qualified immunity because Utah Code
Ann. § 77-7-15 only required a person to disclose his
or her identity on public property and that Gardner
and Mglej’s interaction took place on private property.
The court stated that “the distinction between a public
place and a private residence is a matter of common
sense at least in the context of a residence and under
the facts of this case.” (App. 58a.)

5
The United States Court of Appeals for the Tenth
Circuit affirmed the denial of qualified immunity but
for a different reason. Interpreting Utah Code Ann.
§ 76-8-301.5(1)(d) for the first time, the Tenth Circuit
held that the arrest was unlawful because, in its view,
the statute did not prohibit refusal to hand over an
identification document when asked to do so.
According to the Tenth Circuit, the statute
only makes it a crime for a detainee, during an
investigative detention, to refuse to provide his
name to a police officer under certain
circumstances. Deputy Gardner did not just ask
Mglej for his name. He instead asked Mglej for
his driver’s license or some other form of
identification, and the deputy arrested Mglej
when he failed to provide an ID. There is a
significant difference between asking an
investigative detainee’s name and demanding
instead his driver’s license or some other form
of identification document. Asking for a driver’s
license or other identification is much more
intrusive because, while such a form of
identification would have Mglej’s name, it
would include all sorts of additional personal
information that the officer was not authorized
under Utah law to demand during an
investigative detention. See Utah Code Ann. §
77-7-15
(authorizing
officer
during
investigative detention to ask detainee for his
name, address and an explanation of his
actions).
(App. 15a-16a.) The circuit court went on to interpret
this Court’s precedent in Hiibel v. Sixth Judicial
District Court, 542 U.S. 177 (2004), to hold that the

6
Fourth Amendment only requires a suspect to disclose
his name, and not written identification, during a
valid Terry stop. (App. 16a.) As such, the Tenth
Circuit held that Mglej’s refusal to provide Gardner
with written identification did not create probable
cause to arrest him. (Id.)
The Tenth Circuit then denied Gardner qualified
immunity. According to the Tenth Circuit, the
constitutional violation was clearly established
because, “based on the plain language of the Utah
statutes, Deputy Gardner could not have reasonably
believed that he had probable cause to arrest Mglej for
violating Utah Code Ann. § 76-8-301.5 when the
deputy specifically demanded Mglej’s driver’s license
or some other form of identification.” (App. 17a.) The
court concluded that “it is clear that Utah Code Ann.
§ 76-8-301.5 only permits an officer to arrest a suspect
for his failure to provide his ‘name’ during such an
investigative stop (provided the other conditions set
forth in that statute are met). The Utah statue’s
language is unmistakably clear.” (App. 18a.)
Gardner timely filed a petition for rehearing en
banc, which was denied on October 26, 2020. (App.
71a-72a.)
REASON FOR GRANTING THE PETITION
It was not clearly established in 2011 that an
officer lacked probable cause to arrest a suspect for
failure to disclose his name when the officer asked
for the person’s ID during a Terry stop and the
person refused to provide it.

This Court “often corrects lower courts when they
wrongly subject individual officers to liability” in

7
qualified immunity cases. City and County of San
Francisco v. Sheehan, 135 S.Ct. 1765, 1774, n.3 (2015)
(citing cases).1 “The Court has found this necessary
both because qualified immunity is important to
society as a whole, and because as an immunity from
suit, qualified immunity is effectively lost if a case is
erroneously permitted to go to trial.” White v. Pauly,
137 S. Ct. 548, 552 (2017).
Petitioner submits that this case should be the
next such reversal. As in those prior decisions, the
manifest error in the lower court’s denial of qualified
immunity justifies the Court’s intervention. Petitioner
asks the Court to reverse the decision below on a
specific but crucial issue in the decision below:
Whether Gardner was entitled to qualified immunity
for arresting Respondent without probable cause.2
Because it was reasonable for Officer Gardner to
believe that his arrest was lawful, he should be
entitled to qualified immunity on this claim.
The Tenth Circuit’s ruling hinges entirely on a
legal interpretation of a statute that had not been
1 Cases include: City of Escondido, Cal. v. Emmons, 139 S.Ct. 500
(2019) (per curiam); Kisela v. Hughes, 138 S.Ct. 1148 (2018) (per
curiam); Mullenix v. Luna, 577 U.S. 7 (2015) (per curiam);
Carroll v. Carman,574
U.S.
13
(2014) (per
curiam);Wood v. Moss, 572 U.S. 744 (2014); Plumhoff v. Rickard,
572 U.S. 765 (2014); Stanton v. Sims, 571 U.S. 3 (2013) (per
curiam);and Reichle v. Howards, 566 U.S. 658 (2012).

Although the Tenth Circuit also ruled on Mglej’s excessive force
and malicious prosecution claims, Gardner is not seeking review
of the Tenth Circuit’s ruling as to those claims. Rather, Gardner
is seeking reversal solely on the probable cause issue and then
for remand for further proceedings not inconsistent with the
Court’s opinion.
2

8
interpreted by any court at the time of the arrest. The
statute, § 76-8-301.5, was enacted in 2008. See Utah
Laws 2008, c. 293, § 1, eff. May 5, 2008. When Officer
Gardner arrested respondent in 2011, no court had
interpreted whether a person violated § 76-8-301.5’s
requirement that a person must disclose his “name”
when he refused to provide identification.
The Tenth Circuit ruled that Officer Gardner
should have known that § 76-8-301.5 did not
criminalize refusing to hand over an identification
document such as a driver’s license. Officer Gardner’s
legal interpretation was so wrong, the Tenth Circuit
held, that the interpretation of the new statute was
not only unreasonable, but that an arrest based on
that interpretation was so obviously without probable
cause that it subjected the officer to personal liability.
Petitioner submits that the Tenth Circuit’s ruling
cannot be squared with the well-known principles of
qualified immunity. Qualified immunity must be
granted “if a reasonable officer might not have known
for certain that the conduct was unlawful.” Ziglar v.
Abbasi, 137 S. Ct. 1843, 1867 (2017). It “does not
require a case directly on point for a right to be clearly
established, [but] existing precedent must have placed
the statutory or constitutional question beyond
debate.” White, 137 S. Ct. at 551 (internal citation
omitted). This Court has repeatedly told lower courts
“not to define clearly established law at a high level of
generality.” Sheehan, 135 S. Ct. at 1776 (internal
citation omitted). “[T]he clearly established law must
be ‘particularized’ to the facts of the case.” White, 137
S. Ct. at 552. That is, “the clearly established right
must be defined with specificity.” City of Escondido v.
Emmons, 139 S. Ct. 500, 503 (2019).

9
The Tenth Circuit’s ruling violated these
principles. When Petitioner Gardner made his arrest,
Utah’s recently adopted failure-to-identify statute had
never been interpreted by any court. In the absence of
any caselaw on the statute at all, it was
understandable for Officer Gardner to assume that
Utah’s law prohibiting a person’s failure to identify
himself was violated when Gardner asked Mglej for
his ID and Mglej refused to provide it.
This much is common sense. A major purpose of
Terry stops is to “check identification,” United States
v. Hensley, 469 U. S. 221, 229 (1985). An obvious way
to determine a person’s name during a Terry stop is to
ask for the person’s driver’s license or other
identification document. A driver’s license will have
the person’s photograph and true name. In the
absence of any caselaw at all to the contrary, an officer
aware of Utah’s failure-to-disclose identity statute
would understandably assume that the statute’s
prohibiting a person’s “fail[ure] to disclose the
person’s name” covered refusal to hand over
identification documents such as a driver’s license.
It was particularly understandable for Officer
Gardner to assume his arrest was proper because the
situation he faced was nearly identical to the facts of
Hiibel v. Sixth Judicial District Court, 542 U.S. 177
(2004), the case on which Utah’s statute was based. In
Hiibel, an officer asked a suspect during a Terry stop
if the man had “any identification on [him].” Id. at 181.
The Court explained that this was “a request to
produce a driver's license or some other form of
written identification.” Id. “The officer asked for
identification 11 times and was refused each time.
After warning the man that he would be arrested if he

10
continued to refuse to comply, the officer placed him
under arrest.” Id.

Hiibel ruled that the officer’s arrest did not violate
either the Fourth Amendment or Fifth Amendment
under the circumstances of that case. See id. at 191.
In response, Utah drafted its failure-to-identify
statute to adopt the constitutional standard embraced
in Hiibel. (App. 12a n.6) (noting the similarities
between the statute and the holding of Hiibel). Given
that Utah’s statute was designed to match Hiibel, and
that the relevant facts before Officer Gardner were a
virtual replay of the facts of Hiibel, it is
understandable for Officer Gardner to think his arrest
was lawful just as the arrest in Hiibel was deemed
lawful.
In its opinion below, the Tenth Circuit condemned
Gardner’s arrest on the ground that Gardner should
have interpreted Utah’s statute in light of a technical
reading of Hiibel. Hiibel interpreted Nevada’s stopand-identify statute to require a person to disclose his
name either by stating it verbally or by providing
identification. Hiibel, 542 U.S. at 187-88. Hiibel’s
holding was therefore focused on the Fourth
Amendment limits of Terry stops in light of laws that
require disclosure of a name. (See App. 16a) (citing
Hiibel, 542 U.S. at 187-88). According to the Tenth
Circuit, Officer Gardner should have realized this
limit to Hiibel’s reasoning and interpreted the word
“name” in Utah’s statute as reflecting it. (App. 17a.)
The Tenth Circuit’s reasoning is inconsistent with
the principle of qualified immunity. “[Q]ualified
immunity provides ample protection to all but the
plainly incompetent or those who knowingly violate
the law.” Malley v. Briggs, 475 U.S. 335, 341 (1986).

11
This standard does not require officers to be
constitutional scholars or legislative experts who
interpret novel statutes in light of the reasoning of
caselaw that influenced their drafting.
The sparse caselaw on refusal to hand over
identification documents during Terry stops reaches
the same result. Just one month after Gardner
arrested Mglej, another federal appellate court
interpreting Hiibel granted qualified immunity to an
officer who asked for identification instead of a name.
See Symonette v. City of N. Las Vegas, 449 F. App’x
683, 685 (9th Cir. 2011). Although the statute in
Hiibel only required a suspect to state his name, the
court noted, “we cannot conclude that the officers
violated a clearly established constitutional right by
asking [the suspect] to show them a written form of
identification.” Id. See also Mocek v. City of
Albuquerque, 813 F.3d 912, 927 (10th Cir. 2015)
(holding that officer was entitled to qualified
immunity for arresting suspect who failed to hand
over identification documents based on New Mexico’s
failure-to-identify statute that prohibited “concealing
one’s true name or identity” because “an officer who
reasonably believed identification was required could
have also believed that [a suspect’s] ongoing failure to
show it violated the statute.”).
Officer Gardner’s interpretation was especially
reasonable in light of the reasonable-mistake-of-law
principle established in Heien v. North Carolina, 135
S. Ct. 530 (2014). In Heien, an officer pulled over a car
for having a broken rear brake light. The stop led to
the discovery of drugs in the car. When a passenger
challenged the stop, the North Carolina Court of
Appeals ruled the stop invalid because the state’s

12
never-interpreted brake light law was violated only if
all of the brake lights were out. See id. at 535. The
question before this Court was whether the officer’s
incorrect interpretation of North Carolina law could
“nonetheless give rise to the reasonable suspicion
necessary to uphold the seizure under the Fourth
Amendment.” Id. at 534.

Heien held that the stop was constitutional even

though it was based entirely on the officer’s mistaken
interpretation of state law. As long as it “was
reasonable for an officer to suspect that the
defendant's conduct was illegal,” even based on a
mistaken interpretation of the law thought to make it
illegal, “there was no violation of the Fourth
Amendment in the first place.” Id. at 539. Critically,
the stop was reasonable in part because the brake
light law “had never been previously construed by
North Carolina's appellate courts.” Id. at 540. The
interpretation came after the stop. Because it was
reasonable at the time of the stop to believe that the
brake light law had been violated, there was sufficient
cause to stop the car even though the officer’s
interpretation proved incorrect ex post.
The Tenth Circuit’s opinion cannot be reconciled
with Heien. Here, as in Heien, the officer was faced
with a statute that had never been interpreted before.
Here, as in Heien, the officer made a reasonable
interpretation of the law’s text: here, that Utah’s
failure-to-identify statute, in permitting arrests when
a person refused to state his name, was violated when
a person refused to provide identification. Here, as in
Heien, the Fourth Amendment seizure led a court to
interpret the law for the first time. Here, as in Heien,

13
the Court ultimately disagreed with the officer’s
interpretation.
And yet the Tenth Circuit’s ruling could not be
more different from Heien. While Heien ruled that the
seizure was reasonable and therefore legal, the Tenth
Circuit ruled that the seizure was not only
constitutionally unreasonable and therefore illegal,
but also that it was so plainly factually unreasonable
– so obviously out-of-bounds – that the officer could be
held personally liable for making an unlawful arrest
based on the interpretation the court later adopted.
In reaching the conclusion that Officer Gardner
was not entitled to qualified immunity for the arrest,
the Tenth Circuit interpreted the statute below for the
first time; ignored the reasonable-mistake-of-law
doctrine; and held that the court’s new interpretation
was so obvious that no officer could have interpreted
the statute otherwise and that the arrest was
therefore obviously unlawful. The Tenth Circuit’s
reasoning conflicts with this Court’s qualified
immunity caselaw and should be reversed.
CONCLUSION

Petitioner respectfully asks the Court to grant the
petition for a writ of certiorari and summarily reverse
the lower court’s ruling that Officer Gardner was not
entitled to qualified immunity for the arrest.
Petitioner respectfully asks the Court to then remand
for further proceedings not inconsistent with its
opinion. In the alternative, Petitioner asks the Court
to grant the petition for a writ of certiorari.

14
Respectfully submitted this 28th day of January,
2021.
Frank D. Mylar

Counsel of Record

MYLAR LAW, P.C.
2494 Bengal Blvd.
Salt Lake City, Utah 84121
Phone: (801) 858-0700
office@mylarlaw.com

Counsel for Petitioner

Appendix
United States Court of Appeals, Tenth Circuit
Opinion in 19-4015
Issued September 9, 2020 ......................................... 1a
United States District Court, District of Utah
Central Division
Memorandum Decision and Order
in 2:13-CV-00713-CW-DBP
Issued January 11, 2019 ......................................... 34a
United States Court of Appeals, Tenth Circuit,
Order on rehearing in 19-4015
Issued on October 26, 2020 ..................................... 70a

1a
APPENDIX

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
___________________
No. 19-4015
D.C. Docket No. 2:13-CV-00713-CW-DBP
MATTHEW T. MGLEJ,
PLAINTIFF-APPELLEE,
V.

RAYMOND GARDNER, A/K/A/ OFFICER RAYMOND, AN
OFFICER OF THE GARFIELD COUNTY SHERIFF’S OFFICE,
IN BOTH HIS INDIVIDUAL AND OFFICIAL CAPACITIES,
DEFENDANT-APPELLANT.
___________________
[September 9, 2020]
___________________
Appeal from the United States District Court
for the District of Utah

2a
___________________
Before BRISCOE, EBEL, and HARTZ, Circuit Judges.
___________________
Ebel, Circuit Judge:
___________________
In this interlocutory appeal, Defendant Raymond
Gardner, a Garfield County, Utah, sheriff’s deputy,
challenges the district court’s decision to deny him
qualified immunity from Plaintiff Matthew Mglej’s 42
U.S.C. § 1983 claims stemming from Gardner’s
arresting Mglej in August 2011. Mglej alleged that
Gardner violated the Fourth Amendment when he
arrested Mglej without probable cause, used excessive
force in doing so, and then initiated a malicious
prosecution against Mglej. Having jurisdiction under
28 U.S.C. § 1291, see Mitchell v. Forsyth, 472 U.S.
511, 530 (1985), we AFFIRM the district court’s
decision to deny Gardner qualified immunity on all
three claims.
I. BACKGROUND

Because Deputy Gardner asserted qualified
immunity in a summary judgment motion, we view
the evidence in the light most favorable to Mglej. See
Plumhoff v. Rickard, 572 U.S. 765, 768 (2014). The
facts, then, for purposes of this appeal are as follows:
In summer 2011, Mglej was on a cross-country trip
when his motorcycle broke down in Boulder, an
isolated town of approximately two hundred people
located in Garfield County, Utah. Chuck Gurle, a
mechanic in Boulder, let Mglej stay with him for a few

3a
days while Gurle waited for parts needed to repair the
motorcycle.
Raymond Gardner was a Garfield County sheriff’s
deputy who lived in Boulder and patrolled there. The
deputy first met Mglej on or about August 6 when he
stopped Mglej for speeding on his motorcycle.1
A few days later, on August 8, 2011, while Mglej
was still in Boulder awaiting the repair of his
motorcycle, Deputy Gardner received a report from a
local convenience store/gas station that $20 was
missing from the store’s register and they suspected
someone matching Mglej’s description took the
money. Deputy Gardner, who was off duty that day,
went to Gurle’s home, knocked on the door, and asked
to speak with Mglej outside, calling him by his first
name, “Matthew or Matt.” (Aplt. App. 538.) Mglej
went outside and spoke with the deputy. When the
deputy asked about the missing money, Mglej denied
taking it. Gardner then asked Mglej for his “ID”—
apparently a document that could serve as a form of
identification. (Id. 540 (“Q. Did you ask him for his
driver’s license? A. I believe I asked him for an ID.”
(Gardner’s deposition); see also id. 592 (Mglej’s
deposition).) Deputy Gardner explained to Mglej that,
although Mglej denied taking the money, “I had still
received a complaint of a criminal act and that as such
I needed to do a report, which would require some
information from him, to include some basic
information usually contained on an ID, a driver’s
license, for example.” (Id. 540.) Deputy Gardner told
1 Deputy

Gardner’s account of his first meeting with Mglej
differs, but for purposes of this appeal we accept Mglej’s version
of the facts. See Plumhoff, 572 U.S. at 768.

4a
Mglej that he needed Mglej’s full name, date of birth,
driver’s license information and address for his report
(id. 540, 592), and that “it would be easier on all of us
if he would just produce that information in the form
of an ID or a driver’s license” (Id. 571 (Gardner’s
deposition); see also Id. 592-93 (“Deputy Gardner told
me I had to give him my ID.” (Mglej’s deposition).)
When Mglej declined to give the deputy his ID before
consulting with an attorney, Gardner arrested him.
Deputy Gardner then handcuffed Mglej behind his
back and placed him in the front seat of the deputy’s
patrol car. Mglej complained that the handcuffs were
too tight, but Gardner told him to stop saying that,
because it did not matter.2
Before driving Mglej ninety-five miles to the
Garfield County jail, Gardner stopped by his home to
change into his uniform, leaving the handcuffed Mglej
in the unlocked patrol car. When the deputy returned
to the car, Mglej again complained that the handcuffs
were too tight. Seeing that Mglej’s hands were red, the
deputy tried to loosen the handcuffs using the key but
the handcuffs malfunctioned and the deputy could not
loosen or remove them. Using tools from his garage,
Deputy Gardner was eventually able to pry the
handcuffs off Mglej’s wrists after twenty minutes of
work, causing Mglej significant pain and injury in the
process.
Using a different set of handcuffs, the deputy
again handcuffed Mglej and drove him to the Garfield
County jail. On their way, Deputy Gardner received a
call from an employee at the convenience store who

2 Deputy

Gardner disputes Mglej’s version of these events.

5a
reported that a more thorough examination of the
store’s register indicated that there was no money
missing. The deputy, nevertheless, continued to the
county jail, where he booked Mglej on two charges,
“Obstructing Justice” and “Failure to disclose
identity.” (Id. 416.) The deputy also completed a
written “Statement of Probable Cause for a
Warrantless Arrest.” (Id. 415.) Based on the facts set
forth in that statement, a judge approved Mglej’s
continued detention and set bail. Mglej was released
on bail three days after he was arrested. He then had
to hitchhike the ninety-five miles back to Boulder,
where he found that his motorcycle had been
vandalized and his possessions stolen. The charges
against Mglej were later dropped.
Mglej then sued Deputy Gardner, among others.
Relevant to this appeal, Mglej asserted claims under
42 U.S.C. § 1983 alleging that the deputy violated
Mglej’s Fourth Amendment protection against
unreasonable seizures by 1) arresting him without
probable cause, 2) using excessive force in doing so,
and 3) initiating a malicious prosecution of Mglej.3
Gardner moved for summary judgment on these
claims, asserting qualified immunity. The district
court denied that motion. It is that decision that the
deputy challenges in this interlocutory appeal.
We have jurisdiction to consider Gardner’s
interlocutory appeal only to the extent it raises legal
questions. See Plumhoff, 572 U.S. at 771-73; Mitchell,
3 Although

Mglej asserted his malicious prosecution violated
both the Fourth and Fourteenth Amendments, it is the Fourth
Amendment that governs that claim. See Manuel v. City of
Joliet, 137 S. Ct. 911, 914-20 (2017).

6a
472 U.S. at 530. We have no jurisdiction at this stage
of the litigation to consider the district court’s
determination that Mglej presented sufficient
evidence in support of his claims to survive summary
judgment. See Plumhoff, 572 U.S. at 772-73 (applying
Johnson v. Jones, 515 U.S. 304 (1995)).
II. DISCUSSION

With these jurisdictional limits in mind, we review
de novo the district court’s decision to deny Deputy
Gardner summary judgment, viewing the evidence in
the light most favorable to Mglej. See Estate of Smart
ex rel. Smart v. City of Wichita, 951 F.3d 1161, 1169
(10th Cir. 2020); see also Plumhoff, 572 U.S. at 768.
Once Gardner asserted qualified immunity, it was
Mglej’s burden to show “that (1) the officers’ alleged
conduct violated a constitutional right, and (2) that
right was clearly established at the time of the
violation, such that every reasonable officer would
have understood that such conduct constituted a
violation of that right.” Estate of Smart, 951 F.3d at
1168 (internal quotation marks, alteration omitted);
see also Mullenix v. Luna, 136 S. Ct. 305, 308 (2015).
To be clearly established, ordinarily “a
preexisting Supreme Court or Tenth Circuit
decision, or the weight of authority from other
circuits, must make it apparent to a reasonable
officer that the nature of his conduct is
unlawful.” Carabajal v. City of Cheyenne, 847
F.3d 1203, 1210 (10th Cir. 2017). In deciding
whether a precedent provides fair notice, the
Supreme Court has repeatedly admonished
courts “not to define clearly established law at
a high level of generality.” Kisela v. Hughes,
138 S. Ct. 1148, 1152 (2018). Instead, “the

7a
clearly established law must be ‘particularized’
to the facts of the case.” White v. Pauly, 137 S.
Ct. 548, 552 (2017) (per curiam) (quoting
Ashcroft v. al-Kidd, 563 U.S. 731, 742 (2011)).
Although there need not be “a case directly on
point for a right to be clearly established,
existing precedent must have placed the
statutory or constitutional question beyond
debate.” Kisela, 138 S. Ct. at 1152 (quoting
White, 137 S. Ct. at 551).

Corona v. Aguilar, 959 F.3d 1278, 1285-86 (10th Cir.
2020).

Mglej has met his two-part burden as to each of the
three § 1983 claims at issue here to defeat qualified
immunity.
A. Claim 1: Arrest without probable cause

In his first claim, Mglej alleged that Deputy
Gardner violated the Fourth Amendment because he
arrested Mglej without probable cause.
1. Mglej has established a Fourth Amendment
violation

This Court has recognized three types of policecitizen encounters: (1) consensual encounters which
do not implicate the Fourth Amendment; (2)
investigative
detentions
which
are
Fourth
Amendment seizures of limited scope and duration
and must be supported by a reasonable suspicion of
criminal activity; and (3) arrests, the most intrusive
of Fourth Amendment seizures and reasonable only if
supported by probable cause.

United States v. Hammond, 890 F.3d 901, 904

(10th Cir. 2018) (internal quotation marks omitted);

8a

see also I.N.S. v. Delgado, 466 U.S. 210, 215 (1984).
Mglej’s first claim, and the parties’ arguments and
facts addressing it, implicate this entire spectrum of
police-citizen encounters.

The parties do not dispute that Deputy Gardner
arrested Mglej without a warrant outside the Gurle
home after Mglej failed to give the deputy his driver’s
license or some other form of identification. “Under
the Fourth Amendment, a warrantless arrest requires
probable cause.” Donahue v. Wihongi, 948 F.3d 1177,
1189 (10th Cir. 2020) (citing Devenpeck v. Alford, 543
U.S. 146, 152 (2004)). Probable cause exists “if ‘the
facts and circumstances within the arresting officers’
knowledge and of which they had reasonably
trustworthy information were sufficient to warrant a
prudent man in believing that the suspect had
committed or was committing an offense.’” Id.
(quoting Adams v. Williams, 407 U.S. 143, 148
(1972)). “To determine whether an officer had
probable cause for an arrest, ‘we examine the events
leading up to the arrest, and then decide whether
these historical facts, viewed from the standpoint of
an objectively reasonable police officer, amount to’
probable cause.” District of Columbia v. Wesby, 138 S.
Ct. 577, 586 (2018) (quoting Maryland v. Pringle, 540
U.S. 366, 371, (2003) (internal quotation marks
omitted)). In claiming qualified immunity, Gardner
asserted that there was probable cause to arrest Mglej
under Utah law after he failed to produce his driver’s
license or some other form of identification.
Before turning to consider that contention,
however, we clear away some confusion stemming
from several of the parties’ arguments. In the district
court, Deputy Gardner asserted that there was also

9a
probable cause to arrest Mglej for theft. But the
district court rejected that argument, and Gardner
does not challenge that ruling on appeal. In any event,
any probable cause to arrest Mglej for theft dissipated
on the way to the jail during which time the
convenience store employee called and told the deputy
that there was no money missing.
At the jail, Deputy Gardner booked Mglej for both
“Failing to disclose identity” and “Obstructing
Justice.” (Aplt. App. 416.) In this litigation, however,
the deputy has not asserted there was probable cause
to believe Mglej obstructed justice, and that offense
clearly does not apply to the circumstances at issue
here. The Utah obstruction of justice statute, Utah
Code § 76-8-306(1)(i) (2011), provides that
[a]n actor commits obstruction of justice if the
actor, with intent to hinder, delay, or prevent
the investigation, apprehension, prosecution,
conviction, or punishment of any person
regarding conduct that constitutes a criminal
offense . . . conceals information that is not
privileged and that concerns the offense, after a
judge or magistrate has ordered the actor to
provide the information.
(Emphasis added.) There was no such order in place
at the time of Mglej’s arrest.
Our focus here, then, is only on whether there was
probable cause to arrest Mglej for “Failing to disclose
identity.” (Aplt. App. 416.) Mglej complains that
Deputy Gardner did not originally arrest him for that
charge, but instead just thought it up once he got
Mglej to the County jail, after any evidence of a theft
had dissipated. That argument, however, is

10a
unavailing. Because probable cause is measured by an
objective standard, “an arrest is lawful if the officer
had probable cause to arrest for any offense, not just
the offense cited at the time of arrest or booking.”
Wesby, 138 S. Ct. at 584 n.2 (citing Devenpeck, 543
U.S. at 153-55 & 153 n.2).
We turn, then, to the question of whether there
was probable cause to arrest Mglej under Utah law
after he failed to produce his driver’s license or some
other form of identification. Deputy Gardner points to
a combination of three Utah statutes: one authorizing
a police officer to conduct an investigative detention
when he has reasonable suspicion a crime is being or
has been committed, the second making it a
misdemeanor for an investigative detainee to fail to
give an officer his name under certain circumstances,
and the third authorizing an officer to arrest a
detainee for that misdemeanor offense.
The first of these three statutes, Utah Code § 77-715, is part of the Utah Code of Criminal Procedure and
is entitled “Authority of Peace Officer to Stop and
Question Suspect—Grounds.” In 2011, that statute
provided that
[a] peace officer may stop any person in a public
place when he has a reasonable suspicion to
believe he has committed or is in the act of
committing or is attempting to commit a public
offense and may demand his name, address,
and an explanation of the individual’s actions.
Utah Code § 77-7-15 (2011; subsequently amended.)
This statute “codifies the requirements for an
investigative detention” under Terry v. Ohio, 392 U.S.
1 (1968), Oliver v. Woods, 209 F.3d 1179, 1186 (10th

11a
Cir. 2000); see also Salt Lake City v. Bench, 177 P.3d
655, 659 (Utah Ct. App. 2008), limiting such
investigative detentions to “public” places.4 But “that
statute provides no criminal sanctions for refusing to
present identification when requested by an officer,
and thus, cannot be used to support the arrest” at
issue here.5 Oliver, 209 F.3d at 1188 n.8.
The second statute, Utah Code § 76-8-301.5(1), is
part of the Utah criminal code and it does impose
criminal sanctions for certain conduct during an
investigative detention. This is the statute Mglej was
actually charged with violating. In 2011, § 76-8301.5(1) made it a crime for a person to fail to disclose
identity if during the period of time that the person is
lawfully subjected to a stop as described in Section 777-15:
(a) a peace officer demands that the person
disclose the person’s name;
(b) the demand described in Subsection (1)(a) is
reasonably related to the circumstances
justifying the stop;
(c) the disclosure of the person’s name by the
person does not present a reasonable danger of
self-incrimination in the commission of a crime;
and

4

See infra note 10.

5 Deputy

Gardner’s arguments that Mglej “violated” § 77-7-15,
therefore, are unavailing because that statute addresses only the
authority the State of Utah has given law enforcement officers,
not what a detained individual must do to avoid criminal
sanctions.

12a
(d) the person fails to disclose the person’s
name.
(2011; subsequently amended.)6 Violation of
this statute is a class B misdemeanor, Id. § 768-301.5(2) (2011), punishable by up to six
months in jail and up to a $1,000 fine, Id. §§ 763-204(2), 76-3-301(1)(d).
The third statute, Utah Code § 77-7-2(4), provides
that “[a] peace officer may make an arrest under
authority of a warrant or may, without warrant,
arrest a person . . . when the peace officer has
reasonable cause to believe the person has committed
the offense of failure to disclose identity under Section
76-8-301.5.” “Reasonable cause” as used in this
statute is “synonymous with ‘probable cause.’” State

v. Harker, 240 P.3d 780, 784 n.19 (Utah 2010); see
also Donahue, 948 F.3d. at 1190 n.18.7
6 The

Utah legislature enacted this version of § 76-8-301.5 in
2008. This statute is consistent with the United States Supreme
Court’s 2004 decision in Hiibel v. Sixth Judicial District Court,
542 U.S. 177, 185 (2004). In Hiibel, the Supreme Court
considered an arrest under a Nevada “stop and identify” statute
that required a person detained during an investigative stop to
“identify himself,” which the Nevada Supreme Court interpreted
to mean that the investigative detainee had to give his name, but
not his driver’s license or any other document. Id. at 181-82, 185.
Balancing the intrusion of requiring a person, during an
investigative detention, to give an officer his name against the
government interests in investigating possible criminal activity,
Hiibel held that “requiring a suspect to disclose his name in the
course of a valid Terry stop is consistent with Fourth
Amendment prohibitions against unreasonable searches and
seizures.” Id. at 187-88.
7 The

applicability of this statute is directly tied to the scope of
§ 76-8-301.5, discussed previously.

13a
With these three statutes in mind, “we examine
the events leading up to the [§ 1983 plaintiff’s] arrest,
and then decide whether these historical facts, viewed
from the standpoint of an objectively reasonable police
officer, amount to probable cause,” Wesby, 138 S. Ct.
at 586 (internal quotation marks omitted), here to
arrest Mglej under Utah Code § 76-8-301.5 for failing
to disclose his identity. As we explain, the district
court correctly concluded on the summary judgment
record before it that there was not sufficient probable
cause to arrest Mglej under that statute.
As a starting point, Gardner first contends that his
encounter with Mglej was consensual and that, during
such an encounter, he was entitled to ask Mglej for his
driver’s license or some other form of identification. In
the district court, Deputy Gardner specifically
asserted that “Mglej agreed to voluntar[il]y speak
with Gardner,” but then “refused to provide Deputy
Gardner his name or address”; “[a]ccordingly Deputy
Gardner felt he had no choice but to arrest Plaintiff”
Mglej.8 (Aplt. App. 168 (emphasis added).) But if this
was simply a consensual conversation between
Deputy Gardner and Mglej, as the deputy contends,
then it would not have implicated Utah Code § 76-8301.5, because that statute applies only to an officer’s
investigative detention of a suspect based on
reasonable suspicion. See Oliver, 209 F.3d at 1185-86
(distinguishing between consensual encounters and

8 Although

in his pleadings Gardner’s counsel contends that the
deputy only asked Mglej for his name and address, the deposition
testimony of both Deputy Gardner and Mglej is undisputed that
the deputy instead asked Mglej for his driver’s license or some
other documentary form of identification.

14a
investigative detentions, and noting § 77-7-15
addresses investigative detentions).
Deputy Gardner is correct that an officer’s simply
questioning an individual usually does not, alone,
amount to a seizure for Fourth Amendment purposes.
See Florida v. Bostick, 501 U.S. 429, 434 (1991).
Furthermore, during a consensual encounter, an
officer can ask to see a person’s identification. See Id.
at 434-35. But the hallmark of a consensual encounter
is that, notwithstanding the officer’s questions and
request for identification, “a reasonable person would
feel free ‘to disregard the police and go about his
business.’” Id. at 434 (quoting California v. Hodari D.,
499 U.S. 621, 628 (1991)); see also Oliver, 209 F.3d at
1185-86. Clearly a reasonable person in Mglej’s
position, however, would not have felt free to
disregard Deputy Gardner’s questions and go about
his business because the deputy arrested Mglej for
failing to produce his driver’s license or some other
form of identification. See Delgado, 466 U.S. at 216-17
(noting that, although an officer’s questioning an
individual is not sufficient to amount to a detention,
“if the person[] refuses to answer and the police take
additional steps . . . to obtain an answer, then the
Fourth Amendment imposes some minimal level of
objective justification to validate the detention or
seizure”).
This, then, was not simply a consensual encounter
between Mglej and Deputy Gardner or, if it started as
a consensual encounter, it had evolved into an
investigation detention. “[A]n initially consensual
encounter between a police officer and a citizen can be
transformed into a seizure or detention within the
meaning of the Fourth Amendment, ‘if, in view of all

15a
the circumstances surrounding the incident, a
reasonable person would have believed that he was
not free to leave.’” Id. at 215 (quoting United States v.
Mendenhall, 446 U.S. 544, 554 (1980)).
Gardner next contends that there was reasonable
suspicion to believe that Mglej stole $20 from the
convenience store to justify the deputy’s investigative
detention of Mglej.9 Assuming Deputy Gardner had
reasonable suspicion, there still was no probable
cause to arrest Mglej under Utah Code § 76-8-301.5(1)
when he refused to give Deputy Gardner his driver’s
license or some other form of identification. Section
76-8-301.5(1) only makes it a crime for a detainee,
during an investigative detention, to refuse to provide
his name to a police officer under certain
circumstances. Deputy Gardner did not just ask Mglej
for his name. He instead asked Mglej for his driver’s
license or some other form of identification, and the
deputy arrested Mglej when he failed to provide an ID.
There is a significant difference between asking an
investigative detainee’s name and demanding instead
his driver’s license or some other form of identification
document. Asking for a driver’s license or other
identification is much more intrusive because, while
such a form of identification would have Mglej’s name,
it would include all sorts of additional personal
information that the officer was not authorized under
Utah law to demand during an investigative
9 The

Supreme Court has recognized that, “absent some
reasonable suspicion of misconduct, the detention of” an
individual simply to determine his identity violates that
individual’s “Fourth Amendment right to be free from an
unreasonable seizure.” Delgado, 466 U.S. at 216 (citing Brown v.
Texas, 443 U.S. 47, 52, 99 S. Ct. 2637, 61 L. Ed. 2d 357 (1979)).

16a
detention. See Utah Code § 77-7-15 (authorizing
officer during investigative detention to ask detainee
for his name, address and an explanation of his
actions). More importantly here, the Utah Code limits
the criminal offense set forth in § 76-8-301.5 to
refusing to provide one’s “name.” This is consistent
with the Supreme Court’s decision in Hiibel v. Sixth
Judicial District Court, 542 U.S. 177 (2004), which
held that “requiring a suspect to disclose his name in
the course of a valid Terry stop is consistent with
Fourth
Amendment
prohibitions
against
unreasonable searches and seizures.” Id. at 187-88
(emphasis added). Hiibel reached this conclusion after
balancing the intrusion of requiring a person, during
an investigative detention, to give an officer his name
against the government interests in investigating
possible criminal activity. See Id.
Mglej’s refusal to provide Deputy Gardner with his
driver’s license or some other form of identification,
then, as Deputy Gardner demanded, did not create
probable cause to arrest Mglej under Utah Code § 768-301.5(1). Thus, sufficient to defeat summary
judgment, the record establishes that Deputy
Gardner’s decision to arrest Mglej violated the Fourth
Amendment. See Donahue, 948 F.3d at 1189.10
10 There

are other problems with the probable cause Deputy
Gardner claims he had to arrest Mglej under Utah Code § 76-8301.5(1). Section 76-8-301.5(1) only proscribes conduct during an
investigative detention occurring in a “public place,” as § 77-7-15
provides, and requires an officer’s request for a detainee’s name
to be reasonably related to the circumstances justifying the
“stop.” In denying Deputy Gardner summary judgment, the
district court noted that there were genuine factual disputes

17a
2. This Fourth Amendment violation was clearly
established in August 2011

Mglej has also sufficiently shown that this Fourth
Amendment violation was clearly established at the
time of Mglej’s arrest, in August 2011.
As a practical matter, “[i]n the context of a
qualified immunity defense on an unlawful
arrest claim, we ascertain whether a defendant
violated clearly established law by asking
whether there was arguable probable cause for
the challenged conduct.” Stonecipher v. Valles,
759 F.3d 1134, 1141 (10th Cir. 2014) (quoting
Kaufman v. Higgs, 697 F.3d 1297, 1300 (10th
Cir. 2012)). Put another way, a defendant is
entitled to qualified immunity if she “could
have reasonably believed that probable cause
existed in light of well-established law.” Felders
ex rel. Smedley v. Malcom, 755 F.3d 870, 879
(10th Cir. 2014).

Corona, 959 F.3d at 1285.
Here, however, based on the plain language of the
Utah statutes, Deputy Gardner could not have
reasonably believed that he had probable cause to
arrest Mglej for violating Utah Code § 76-8-301.5
when the deputy specifically demanded Mglej’s
driver’s license or some other form of identification.
The district court, therefore, correctly denied Deputy
Gardner qualified immunity from Mglej’s false arrest
claim.
underlying whether these other conditions were met here. We
have no jurisdiction to review those factual determinations in
this interlocutory appeal.

18a

Mocek v. City of Albuquerque, 813 F.3d 912 (10th
Cir. 2015), on which Deputy Gardner relies, is
distinguishable. In that case, Mocek alleged that a
police officer lacked probable cause to arrest him
under a New Mexico statute that made it a crime to
conceal one’s “true name or identity” under certain
circumstances. Id. at 922 (citing N.M. Stat. § 30-22-3).
Because New Mexico courts had not addressed what
the statute meant by “identity,” the Tenth Circuit held
that an objectively reasonable officer could have
believed that he had probable cause to arrest Mocek
under that statute when Mocek failed to produce his
ID upon request, even though this Court doubted the
state statute made it a crime not to produce an ID. Id.
at 925-26. Different from the New Mexico statute at
issue in Mocek, it is clear that Utah Code § 76-8-301.5
only permits an officer to arrest a suspect for his
failure to provide his “name” during such an
investigative stop (provided the other conditions set
forth in that statute are met). The Utah statute’s
language is unmistakably clear. The district court,
therefore, correctly denied Deputy Gardner qualified
immunity from Mglej’s § 1983 unlawful-arrest claim.
B. Claim two: Excessive force in handcuffing Mglej

Next, Mglej alleged that Deputy Gardner violated
the Fourth Amendment when he used excessive force
to arrest Mglej by handcuffing him too tightly, and
then ignoring Mglej’s initial complaints that the
handcuffs were too tight. See generally Graham v.
Connor, 490 U.S. 386, 388 (1989) (stating that a claim
alleging an officer used excessive force in making an
arrest is governed by the Fourth Amendment). Mglej
further contended that his injuries from the tight
handcuffs were exacerbated when Deputy Gardner

19a
decided to use tools from the deputy’s garage to pry
the handcuffs off Mglej’s wrists when they
malfunctioned.
As an initial matter, the district court erred to the
extent it linked this excessive force claim to Mglej’s
false-arrest claim, by holding that, “[b]ecause Officer
Gardner lacked probable cause to believe a crime had
occurred, any effort to constrain Mr. Mglej’s liberty
would have been excessive” (Aplt. App. 358). Cortez v.
McCauley, 478 F.3d 1108, 1127 (10th Cir. 2007) (reh’g
en banc) (“reject[ing] the idea . . . that a plaintiff’s
right to recover on an excessive force claim is
dependent on the outcome of an unlawful seizure
claim”). Mglej’s excessive-force claim is separate from
his claim that Deputy Gardner unlawfully arrested
him, and requires a separate inquiry. See Id.; see also
Maresca v. Bernalillo Cty., 804 F.3d 1301, 1308, 1313,
1316 (10th Cir. 2015); Romero v. Story, 672 F.3d 880,
890 (10th Cir. 2012).
[A] plaintiff may argue law enforcement officers
unlawfully arrested him. If the plaintiff
successfully proves his case, “he is entitled to
damages for the unlawful arrest, which
includes damages resulting from any force
reasonably employed in effecting the arrest.”
[Cortez, 478 F.3d at 1127] (emphasis added). If
the plaintiff also alleges excessive force, the
district court must conduct a separate and
independent inquiry regardless of whether the
plaintiff’s unlawful arrest claim is successful.
Id. And if the district court concludes the arrest
was unlawful, the court may not automatically
find any force used in effecting the unlawful
arrest to be excessive. Instead, the district court

20a
must then analyze the excessive force inquiry
under the assumption the arrest was lawful. As
we said in Cortez:
[T]he excessive force inquiry evaluates
the force used in a given arrest or
detention against the force reasonably
necessary to effect a lawful arrest or
detention under the circumstances of the
case. Thus, in a case where police effect
an arrest without probable cause or a
detention without reasonable suspicion,
but use no more force than would have
been reasonably necessary if the arrest
or the detention were warranted, the
plaintiff has a claim for unlawful arrest
or detention but not an additional claim
for excessive force.

Cortez, 478 F.3d at 1126 (emphasis added). If

successful in proving his excessive force claim,
the plaintiff “is entitled to damages resulting
from that excessive force.” Id. at 1127.
Accordingly, “[t]he plaintiff might succeed in
proving the unlawful arrest claim, the excessive
force claim, both, or neither.” Id.

Romero, 672 F.3d at 890 (footnote omitted).
Here, then, only for purposes of Mglej’s excessive
force claim, we assume Deputy Gardner lawfully
arrested Mglej, see Id., and determine whether the
force the deputy used to handcuff Mglej during that
arrest was objectively reasonable, see Graham, 490
U.S at 397. Mglej asserts two theories as to why the
force Deputy Gardner used in handcuffing Mglej was
not objectively reasonable. He first asserts that the

21a
use of any handcuffs at all during his arrest was
excessive and, alternatively, that even if it was
objectively reasonable to handcuff him, the force
Deputy Gardner used to do that was excessive. Mglej’s
first theory does not survive qualified immunity, but
his second theory does.
1. It was not clearly established that handcuffing
Mglej at all was objectively unreasonable

Mglej first asserts that handcuffing him at all was
objectively unreasonable under the circumstances
presented here. But Mglej has failed to identify any
relevant case law clearly establishing that Deputy
Gardner violated the Fourth Amendment just by
handcuffing Mglej. Cf. A.M. ex rel. F.M. v. Holmes,
830 F.3d 1123, 1152 (10th Cir. 2016) (“conclud[ing]
that A.M.’s [excessive force] claim fails because there
was no clearly established law indicating that F.M.’s
minor status could negate Officer Acosta’s customary
right to place an arrestee in handcuffs during the
arrest”).
In fact, relevant case law generally suggests the
contrary. The Supreme Court has held that “the right
to make an arrest or investigatory stop necessarily
carries with it the right to use some degree of physical
coercion or threat thereof to effect it.” Graham, 490
U.S. at 396; see also Cortez, 478 F.3d at 1128. See
generally Atwater v. City of Lago Vista, 532 U.S. 318,
354-55 (2001) (holding arrest for minor offense, which
included being handcuffed, placed in a patrol car and
driven to the police station, though embarrassing and
inconvenient, was not “made in an ‘extraordinary
manner, unusually harmful to [her] privacy or . . .
physical interests.’” (quoting Whren v. United States,
517 U.S. 806, 818 (1996)).

22a
Furthermore, the Tenth Circuit has noted that “in
nearly every situation where an arrest is
authorized . . . handcuffing is appropriate.” Fisher v.
City of Las Cruces, 584 F.3d 888, 896 (10th Cir. 2009);
see also A.M., 830 F.3d at 1155 (“confidently
conclud[ing] here that a reasonable officer in Officer
Acosta’s position would have understood Atwater’s
general acceptance of handcuffing incident to a lawful
arrest to indicate that, in the ordinary course,
handcuffing any arrestee—absent some injury
specifically caused by the application of the cuffs—is
lawful”).11
2. However, Mglej has sufficiently alleged a claim that
the force Deputy Gardner used to handcuff him was
excessive

Mglej next asserts that, even if it was objectively
reasonable to handcuff him, it was not objectively
reasonable for Deputy Gardner to place the handcuffs
on him so tightly and then to ignore Mglej’s initial
complaints about how tight the handcuffs were. “An
excessive force claim that includes a challenge to the
‘[m]anner or course of handcuffing’ requires the
plaintiff to show both that ‘the force used was more

11 The

district court faulted Gardner because he always uses
handcuffs when he transports an arrestee, instead of making a
case-by-case determination as to whether handcuffs are needed
in a particular situation. Deputy Gardner’s subjective reasons for
handcuffing Mglej, however, are not at issue here. “As in other
Fourth Amendment contexts, . . . the ‘reasonableness’ inquiry in
an excessive force case is an objective one: the question is
whether the officers’ actions are ‘objectively reasonable’ in light
of the facts and circumstances confronting them, without regard
to their underlying intent or motivation.” Graham, 490 U.S. at
397; see also Fisher, 584 F.3d at 894.

23a
than reasonably necessary’ and ‘some non-de minimis
actual injury.’” Donahue, 948 F.3d at 1196 (quoting
Fisher, 584 F.3d at 897-98). This circuit has
previously recognized that, “[i]n some circumstances,
unduly tight handcuffing can constitute excessive
force where a plaintiff alleges some actual injury from
the handcuffing and alleges that an officer ignored a
plaintiff’s timely complaints (or was otherwise made
aware) that the handcuffs were too tight.” Cortez, 478
F.3d at 1129; see also Vondrak v. City of Las Cruces,
535 F.3d 1198, 1208-09 (10th Cir. 2008). The salient
factors we consider in making those determinations
include how much force was objectively warranted in
arresting Mglej, and any actual injury to Mglej, which
aids us in determining whether Deputy Gardner used
more force than objectively reasonable under these
circumstances to handcuff Mglej.
a. Mglej has sufficiently established that Deputy
Gardner used more force than was objectively
reasonable

“Determining whether the force used to effect a
particular seizure is ‘reasonable’ under the Fourth
Amendment requires a careful balancing of the nature
and quality of the intrusion on the individual’s Fourth
Amendment interests against the countervailing
governmental interests at stake.” Graham, 490 U.S.
at 396 (internal quotation marks omitted). In
conducting this balancing, we consider the three nonexclusive factors the Supreme Court set forth in
Graham:
“[1] the severity of the crime at issue, [2]
whether the suspect poses an immediate threat
to the safety of the officers or others, and [3]
whether he is actively resisting arrest or

24a
attempting to evade arrest by flight.” Fisher v.
City of Las Cruces, 584 F.3d 888, 894 (10th Cir.
2009) (quoting Graham, 490 U.S. at 396).

Donahue, 948 F.3d at 1196. Applying those factors
here, we conclude only minimal force was objectively
justified in arresting Mglej. See Id. at 1196-97; Fisher,
584 F.3d at 894-96.
i. Deputy Gardner arrested Mglej only for a minor
misdemeanor

“Under the first [Graham] factor, a ‘minor offense
supports the use of minimal force.’” Donahue, 948
F.3d at 1196 (alteration incorporated) (quoting Perea
v. Baca, 817 F.3d 1198, 1203 (10th Cir. 2016)). Deputy
Gardner arrested Mglej for a non-violent Class B
misdemeanor—failing to provide the deputy with his
name. See Utah Code § 76-8-301.5. That offense was
punishable by no more than six months in jail and/or
a fine of no more than $1,000. Id. §§ 76-3-204(2), 76-3301(1)(d). Furthermore, although the parties do not
address the question, it appears that the offense
Deputy Gardner was investigating when he
confronted Mglej—the theft of twenty dollars—is also
a non-violent misdemeanor offense. See Id. § 76-6412(1)(d) (listing theft of less than $500 as a Class B
misdemeanor).12
These minor non-violent offenses clearly weigh
against the objective need to use much force against

12 At

the police station, Deputy Gardner also charged Mglej with
obstruction of justice, even though that statutory offense clearly
did not apply to the circumstances presented here. Even so, that
offense would have been only a misdemeanor. See Utah Code
§ 76-8-306(3) (2011).

25a
Mglej. See Donahue, 948 F.3d at 1189-90, 1197
(holding arrests under Utah law for misdemeanor
offenses of public intoxication and failure to identify
oneself warranted only minimal force); see also Koch
v. City of Del City, 660 F.3d 1228, 1246-47 (10th Cir.
2011) (reaching the same conclusion when considering
a misdemeanor obstruction offense); Fisher, 584 F.3d
at 895 (petty misdemeanor); Fogarty v. Gallegos, 523
F.3d 1147, 1160 (10th Cir. 2008) (petty misdemeanor
disorderly conduct).
ii. Mglej posed no threat to Deputy Gardner’s safety
or the safety of others

Under the second Graham factor, we consider
whether Mglej posed “an immediate threat to the
safety of the officers or others.” Donahue, 948 F.3d at
1196 (quotation omitted). “Under the second factor, an
officer may use increased force when a suspect is
armed, repeatedly ignores police commands, or makes
hostile motions towards the officer or others.” Id. But
there is no evidence that anything like that occurred
here. Nor is there any evidence that otherwise
suggested that Mglej posed any threat to Deputy
Gardner’s safety or the safety of others. In fact,
Deputy Gardner felt comfortable leaving Mglej alone
in the unlocked patrol car parked outside Gardner’s
home, where his wife and kids were, while Gardner
ran inside to change into his uniform. He further felt
comfortable bringing Mglej into his garage where the
deputy then worked to pry off the malfunctioning
handcuffs. The fact that there was no evidence that
Mglej posed an immediate threat either to Deputy
Gardner or others weighs against the use of more than
minimal force against Mglej. See Donahue, 948 F.3d
at 1197 (holding evidence that arrestee was unarmed

26a
and made no hostile motions toward officers
supported use of only minimal force); Koch, 660 F.3d
at 1246-47 (holding fact that arresting officer did not
argue that the arrestee posed any safety threat
weighed in favor of § 1983 plaintiff alleging use of
excessive force).
iii. There is no evidence that Mglej was resisting or
trying to evade arrest

Under the third Graham factor, we consider
whether Mglej was actively resisting arrest or
attempting to evade arrest by flight. See Donahue,
948 F.3d at 1196. There was no evidence at all to
suggest that Mglej was trying to resist arrest or flee.
See Id.; see also Fisher, 584 F.3d at 896. In fact,
Deputy Gardner testified at his deposition that he felt
comfortable leaving the handcuffed Mglej in the
unlocked patrol car parked in front of the deputy’s
home, where his wife and kids were, because Mglej
“didn’t exhibit any behavior that would lead me to
believe that he would try to escape.” (Aplt. App. 553.)
All three Graham factors, then, indicate that only
minimal force was objectively reasonable in arresting
Mglej. See Donahue, 948 F.3d at 1196; Fisher, 584
F.3d at 896.
b. Mglej has sufficiently established that the
handcuffs caused him an actual injury

The next question is whether Deputy Gardner
used more than the minimal force against Mglej that
was objectively reasonable. Where, as here, the
alleged excessive force is the use of handcuffs that
were too tight, Mglej has to show that the handcuffs
caused him “some actual injury that is not de minimis,
be it physical or emotional.” Cortez, 478 F.3d at 1129;

27a

see also Donahue, 948 F.3d at 1196-97; Fisher, 584

F.3d at 898-99. “Because handcuffing itself is not
necessarily an excessive use of force in connection
with an arrest, a plaintiff must show actual injury in
order to prove that the officer used excessive force in
the course of applying handcuffs.” Donahue, 948 F.3d
at 1197 n.29 (quoting Fisher, 584 F.3d at 897).
Mglej has made a sufficient showing of an actual
non-de minimis injury here, based on the medical
evidence that he suffered long-term nerve damage to
his left hand. See Vondrak, 535 F.3d at 1209
(explaining that plaintiff’s permanent nerve injury
from handcuffing established the required “actual
injury”).
In addition to this long-lasting nerve injury, Mglej
also asserted that he suffered prolonged and
significant pain during the handcuffing. It is, of
course, a fact that handcuffs are not comfortable and
arrestees frequently complain about pain caused by
their use. See United States v. Rodella, 804 F.3d 1317,
1328 (10th Cir. 2015) (“Handcuffing inevitably
involves some use of force, and it almost inevitably
will result in some irritation, minor injury, or
discomfort where the handcuffs are applied.” (citation,
internal quotation marks omitted)). In light of that,
conclusory complaints of pain alone are not ordinarily
sufficient to support a Fourth Amendment excessive
force claim. See Koch, 660 F.3d at 1247-48 (holding
plaintiff’s evidence, that she suffered superficial
abrasions but did not establish any neurological
injury, was insufficient to establish the required
actual injury needed to support an excessive force
claim based on being handcuffed too tightly).

28a
But in making that determination, we focus on the
specific facts presented in a given case. See generally
A.M., 830 F.3d at 1151 (noting that “the Supreme
Court has said that ‘for the most part per se rules are
inappropriate in the Fourth Amendment context’”
(quoting United States v. Drayton, 536 U.S. 194, 201
(2002)). Here, we have the unusual case where there
is more than just an uncorroborated sworn statement
from Mglej that the handcuffs hurt his wrists. See
Fisher, 584 F.3d at 900 (holding § 1983 plaintiff had
established an actual injury, noting that “[t]his case
does not involve only a self-serving affidavit asserting
pain alone, without corroborating facts”). Deputy
Gardner’s own actions corroborated that the
handcuffs were too tight. After initially ignoring
Mglej’s complaints that the handcuffs were too tight,
once the deputy checked the handcuffs and saw that
Mglej’s hands were red, the deputy testified in his
deposition that he realized that it was “necessary to
remove the handcuffs.” (Aplt. App. 553.) This was
especially the case, according to the deputy, because
it was going to take two hours to drive Mglej to the
jail. When the deputy was unable to loosen the
handcuffs with the key, Deputy Gardner was
sufficiently concerned about how tight the handcuffs
were that he deemed it necessary to use his own tools
to pry the malfunctioning handcuffs off Mglej. The
deputy’s
initial
attempts
to
remove
the
malfunctioning handcuffs made them even tighter,
causing Mglej further injury and greater pain.
It took Deputy Gardner twenty minutes to pry off
the handcuffs, and this was after the initial fifteen to
thirty minutes that Deputy Gardner ignored Mglej’s
complaints that the handcuffs were too tight. “It is
possible for someone to be handcuffed for so long that

29a
handcuffing constitutes an unreasonable use of force.”
J.H. ex rel. J.P. v. Bernalillo Cty., 806 F.3d 1255, 1258
n.2 (10th Cir. 2015) (citing Fisher, 584 F.3d at 894).
Furthermore, the twenty minutes it took the deputy
to destroy the handcuffs in order to pry them off
intensified the pain, injury and fear Mglej suffered.
Then, once the deputy got the malfunctioning
handcuffs off, he put a new set of handcuffs on Mglej,
which continued to cause Mglej’s injured wrists pain,
put the handcuffed Mglej back into the patrol car and
drove two hours to the jail. See Fisher, 584 F.3d at 894
(holding that, even when initial handcuffing is
objectively reasonable, other factors, such as
prolonged duration, can affect the objective
reasonableness calculation).
Viewing the evidence in the light most favorable to
Mglej, then, the lasting physical injury he suffered
and the extreme prolonged pain inflicted on him is
sufficient for Mglej to meet his burden of establishing
an actual, non-de minimis injury to support an
excessive force claim based on being handcuffed too
tightly. See Cortez, 478 F.3d at 1129 (“In some
circumstances, unduly tight handcuffing can
constitute excessive force where a plaintiff alleges
some actual injury from the handcuffing and alleges
that an officer ignored a plaintiff’s timely complaints
(or was otherwise made aware) that the handcuffs
were too tight.”); see also Vondrak, 535 F.3d at 120809.
Furthermore, as the cases cited above indicate,
such a Fourth Amendment violation was clearly
established in August 2011. See Vondrak, 535 F.3d at
1209 (stating that, “at the time of Vondrak’s arrest [in
2003], the right to be free from unduly tight

30a
handcuffing was ‘clearly established’—as were the
contours of the right,” citing Cortez, 478 F.3d at 1129).
In particular, this court previously recognized, in
2008, that a claim that overly tight handcuffs caused
permanent nerve damage was sufficient to establish a
Fourth Amendment excessive force claim. See Id. The
district court, therefore, did not err in denying Deputy
Gardner qualified immunity on this excessive force
claim.13
C. Count 3: Malicious prosecution

Mglej finally alleged that Deputy Gardner
initiated a malicious prosecution against him by
booking him into jail on charges of failing to identify
himself and obstructing justice. Based on those
charges and the written probable cause statement
Deputy Gardner completed in support of those
charges, a judge approved Mglej’s continued detention
and set bail. The charges against Mglej were
eventually dropped.
To state a § 1983 claim for malicious
prosecution, a plaintiff must show: “(1) the
defendant caused the plaintiff’s continued
confinement or prosecution; (2) the original
action terminated in favor of the plaintiff; (3) no
probable cause supported the original arrest,
continued confinement, or prosecution; (4) the

13 The

clearly established Fourth Amendment violation that
Mglej has alleged is that Deputy Gardner applied the handcuffs
too tightly and ignored Mglej’s initial complaints that they were
too tight. Mglej has not alleged a separate excessive force claim
stemming particularly from the deputy’s attempts to remove the
malfunctioning handcuffs.

31a
defendant acted with malice; and (5) the
plaintiff sustained damages.”

Montoya v. Vigil, 898 F.3d 1056, 1066 (10th Cir.
2018) (quoting Wilkins v. DeReyes, 528 F.3d 790, 799
(10th Cir. 2008)).
In moving for qualified immunity, Deputy Gardner
asserted that Mglej could not establish the third and
fourth elements of his malicious prosecution claim,
the lack of probable cause and that Deputy Gardner
acted with malice. As discussed earlier, however,
Deputy Gardner lacked even arguable probable cause
to charge Mglej with failing to give his name under
Utah Code § 76-8-301.5. Moreover, even Deputy
Gardner does not contend that there was even
arguable probable cause to charge Mglej with
obstructing justice.
As for malice, it “may be inferred if a defendant
causes the prosecution without arguable probable
cause.” Stonecipher, 759 F.3d at 1146. The plain
language of the two statutes under which Deputy
Gardner booked Mglej clearly do not apply to the
circumstances presented in this case. Moreover,
charging Mglej with obstructing justice, which clearly
did not apply, supported doubling the bail Deputy
Gardner suggested, from $555 to $1,110. The judge set
Mglej’s bail at $1,000.
Furthermore, Mglej testified in his deposition that,
when the intake officer at the jail asked Deputy
Gardner on what charges the deputy was booking
Mglej, Deputy Gardner responded: “I don’t know. Let
me look at the book. I am sure I can find something.”
(Aplt. App. 600.) Mglej contends that the deputy then
looked through the Utah criminal code before

32a
charging Mglej under two criminal statutes that, by
their plain language, did not apply to the
circumstances precipitating Mglej’s arrest. Mglej has,
thus, sufficiently met the malice element of a
malicious prosecution claim.14
In the district court, Deputy Gardner did not
specifically challenge that this constitutional
violation—malicious
prosecution—was
clearly
established in August 2011. In any event, it was. In
2008, the Tenth Circuit stated that “it of course has
long been clearly established that knowingly
arresting a defendant without probable cause, leading
to the defendant’s subsequent confinement and
prosecution, violates the Fourth Amendment’s
proscription against unreasonable searches and
seizures.” Wilkins, 528 F.3d at 805.
III. CONCLUSION

Viewing the evidence, as we must, in the light most
favorable to Mglej, the district court correctly denied
14 While

ordinarily a Fourth Amendment claim is measured by
an objective reasonableness standard, the malice element of a
Fourth Amendment malicious prosecution claim focuses on the
defendant officer’s knowledge or state of mind. See Young v. City
of Idabel, 721 F. App’x 789, 804 (10th Cir. 2018) (unpublished)
(summarizing Tenth Circuit cases holding “malice” element of
§ 1983 malicious prosecution claim is met when there is evidence
that the defendant officer knowingly made false statements or
knew there was no probable cause to support prosecution); see
also Stonecipher, 759 F.3d at 1146 (citing Wilkins, 528 F.3d at
800-01, for the proposition that malice may be inferred from a
§ 1983 defendant’s intentional or reckless conduct). See
generally Manuel, 137 S. Ct. at 925 (Alito, J., dissenting) (noting
tension between “subjective bad faith, i.e., malice [which] is the
core element of a malicious prosecution claim” and Fourth
Amendment’s objective reasonableness standard).

33a
Deputy Gardner qualified immunity on Mglej’s three
§ 1983 claims for false arrest, excessive force, and
malicious prosecution. We, therefore, AFFIRM the
district court’s decision to deny Gardner summary
judgment on these three claims.

34a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH
CENTRAL DIVISION
___________________
Case No. 2:13-CV-00713-CW-DBP
Matthew T. Mglej, Plaintiff,

v.
Garfield County et al., Defendants.
___________________
[January 11, 2019]
___________________
MEMORANDUM DECISION AND ORDER
___________________

Clark Waddoups, United States District Judge.
Before the court is a Motion for Summary
Judgment of Plaintiff Matthew Mglej’s § 1983 action
filed by Defendants Raymond Gardner and Garfield
County.1 (ECF No. 111.) Defendants contend the
events at issue in this action did not violate Mr.
Mglej’s constitutional rights, and even if they did,
Officer Gardner is entitled to qualified immunity.

1 The

Garfield County Jail and the Garfield County Sheriff's
Office are named as separate defendants, but they are not
properly included as separate entities from the County.
Additionally, Mr. Mglej names Doe defendants who have never
been named and therefore are dismissed with prejudice.

35a
They also argue there was no policy or custom in place
that creates a basis for county liability. The court
heard oral argument on the matter on September 11,
2018. (ECF No. 146.) Having considered the briefing
and oral argument, and otherwise being fully
informed, the court now GRANTS in part and
DENIES in part Defendants’ Motion for the reasons
stated herein.
FACTS

In the summer of 2011, Plaintiff Matthew Mglej
left his home in Oregon and headed by motorcycle
across the American West toward Dallas, Texas.
(Plaintiff’s Response 3, ECF No. 132.) He was going to
meet family he had never known. (Mglej Deposition
11: 12-23, ECF No. 132-5.) His plans were disrupted
when he experienced mechanical problems outside of
Boulder, Utah. (Plaintiff’s Response 4, ECF No. 132.)
Boulder is a rural town with about 200 residents.
(Gardner Declaration ¶ 5, ECF No. 112.) His engine
was “burping” and “cutting in and off,” and he needed
a tire repair. (Mglej Deposition 16: 18-22, 23: 14-16,
ECF No. 132-5.s) He went into town and asked around
for the mechanic and learned that Chuck Gurle was
the only mechanic in town. (Id. at 23: 21-24: 20.) When
Mr. Mglej could not find Mr. Gurle, he returned to
town and eventually found another traveler with
whom he camped for the night. (Id. at 25: 4-28: 15.)
In Boulder, Mr. Mglej experienced a largely
welcoming community where he waited for the local
mechanic to repair his bike. Eventually Mr. Mglej
found Mr. Gurle, who invited him to stay in his home
while he repaired the bike, which required a tire to be

36a
shipped.2 (Plaintiff’s Opposition 11, ECF No. 132;
Mglej Deposition 47: 12, ECF No. 132-5.) He spent his
days socializing with staff and guests at the Boulder
Exchange and the Burr Trail Grill and other local
places where he felt the community “took [him] in.”
(Mglej Deposition 42: 16-46: 21, ECF No. 132-5.). He
“made a lot of friends” and “became very close to the
community.” (Id. at 37: 13-14.)
But Mr. Mglej eventually came into contact with
law enforcement. Mr. Mglej and Officer Raymond
Gardner of the Garfield County Sheriff’s Department
tell markedly different accounts of their first
interaction. Mr. Mglej testified in his deposition that
he saw Officer Gardner several times and felt Gardner
was “eyeing [him] down, like, who is this guy.” (Id. at
37: 18-25.) Then “at one point [Mglej] was driving [his]
motorcycle and [he] was going to the Boulder
Exchange, and [Gardner] pulled [him] over” for
speeding, approximately five miles over the limit. (Id.
at 38: 14-24.) Mr. Mglej testified that Gardner asked
him who he was, where he was from, and why he was
in town. (Id. at 39: 7-12.) Mr. Mglej also asserts that
he gave Officer Gardner his ID card during this initial
interaction. (Id. 54: 25-55: 1.) Mr. Mglej claims that
Officer Gardner ultimately gave him a warning and
let him go. (Id. at 39: 10-12.) Mr. Mglej reports this
interaction occurred two or three days after he arrived
in town. (Id.) Officer Gardner denies he ever pulled

2 Defendants

argue that the property where Mr. Mglej stayed
was a part of a business and therefore public property. But they
concede that there was a residence on the property and that
residence is where Mr. Mglej spent his time while in Boulder.
(Defendants' Motion viii, ECF No. 111.)

37a
Mr. Mglej over for speeding. (Gardner Depo. 27: 2425.)
Officer Gardner states instead that one day in the
summer of 2011, he “was pulled off on the side of the
road, patrolling for speeding. (Gardner Affidavit ¶ 8,
ECF No. 112.) While doing this, Mr. Mglej rode past .
. . on his motorcycle.” (Id.) He “did not attempt to pull
Mr. Mglej over, and [he] remained parked off on the
side of the road. However, Mr. Mglej turned around
and came back to voluntarily speak with” him. (Id.)
Officer Gardner’s statement is that Mr. Mglej wanted
to know how fast he was going and that he “did not
ask for [Mr. Mglej’s] driver’s license at that time,”
even though he thought “the interaction was strange,
which alerted [his] suspicions about Mr. Mglej.” (Id. ¶
9.)
Their next encounter occurred on August 8, 2011,
around the time Mr. Mglej was preparing to leave
town, and resulted in the alleged violation. After
“about seven days” of being in Boulder, one day before
his eventual arrest, Mr. Mglej’s tire arrived, and Mr.
Gurle installed it “right away.” (Id. at 47: 12-22.) The
following day, around midday, Mr. Mglej “was
completely packed,” and he and Mr. Gurle were
“saying [their] goodbyes” while “hanging out” playing
music. (Id. at 51: 22-52: 11.) While this was going on,
Officer Gardner came to the front door. (Id. at 52: 1011.) “[H]e came and knocked on the door, and he was
completely out of uniform or anything like that. It was
very casual. It seemed like . . . it surprised Chuck.”
(Id. at 52: 23-25.) It was his day off, but he is the only
officer in town, so Officer Gardner went to Mr. Gurle’s
house in civilian clothes for the purpose of

38a
investigating an alleged theft. (Id. at 35: 4-6, 36: 2537: 2.)
Apparently, Officer Gardner had come to the
Gurle’s residence to follow up on a report from the
Boulder Exchange, a local convenience store, that
twenty dollars were missing from the till. (Plaintiff’s
Response Brief 6-7; ECF No. 132.) According to Officer
Gardner, a female employee “had reported being made
to feel uncomfortable by some of Mr. Mglej’s
comments. [And] this employee” reported “that when
she had returned from using the restroom, money was
missing from the cash register and [she] believed Mr.
Mglej could have been responsible for its
disappearance.” (Gardner Affidavit ¶ 11, ECF No.
112.) Dispatch, who first received the call from the
Boulder Exchange, apparently reported to Officer
Gardner that Mr. Mglej was loitering but did not
provide a basis for the employee’s belief or
communicate that Mr. Mglej made the employee
uncomfortable. (Gardner Affidavit ¶ 11, ECF No. 112;
Gardner Deposition 30:9-11; 31: 16-21.)
Following up on the call from Dispatch, Officer
Gardner called the Boulder Exchange and asked
about what happened. (Id. at 32: 1-3.) The employee
who reported the incident told Officer Gardner that
she did a “quick cursory check” of the till after briefly
stepping outside and reported the apparently missing
money, which “she thought” was twenty dollars. (Id.
at 32: 10-21, 33: 3.) She also described the person she
believed to have committed the offense—she described
a person who had been newly around town and who
was staying with Mr. Gurle while having his bike
repaired. (Id. at 33: 12-17.) Officer Gardner deduced
that she was referring to Mr. Mglej. (Id. at 33: 18-21.)

39a
She did not indicate whether there were other patrons
in the store at the time of the alleged theft. (Id. at 3233.) She also reported that Mr. Mglej made
“inappropriate comments” and that she felt
uncomfortable. (Id. at 34: 11-19.) Mr. Mglej admits he
was at the Boulder Exchange that morning but denies
that the employee ever went outside while he was in
the store. (Mglej Decl. ¶ 10; ECF No. 132-3.)
According to Officer Gardner, the Gurle residence,
where Officer Gardner went after calling the Boulder
Exchange, is approximately an eighth of a mile from
the Burr Trail Road, which is a county road off of Utah
Highway 12. (Gardner Deposition 37: 19-38: 3.) The
Gurles live in a single-wide trailer and park a fifthwheel camper on the property. (Id. at 38: 8-12.) They
do not own the property. (Id. at 39: 1-2.) According to
Officer Gardner, the property where the residence and
camper are parked is called Belnap Rental. (Id. at 39:
3-11.) Officer Gardner contends that Mr. Gurle “does
do some business at,” what he calls, Belnap Rental.
(Id. at 39: 14-15.) Mr. Gurle declares, however, that
neither he nor his wife does any business from their
home.3 (Gurle Declaration ¶¶ 8-9, ECF No. 132-2.)

3 At

oral argument, Officer Gardner's counsel argued that even
Mr. Mglej said there was a shop on site at Belnap Rental. He
conceded, however, that this information was communicated
after Mr. Mglej was asked a compound question, creating
ambiguity about which question he answered affirmatively, and
also conceding that Mr. Mglej was never asked whether Mr.
Gurle used the shop for personal or commercial purposes.
Because Mr. Gurle has stated there was no commercial activity
conducted at his residence, and because the court is required to

40a
When Officer Gardner arrived at the Gurles’ home,
he knocked and asked for Matt, Mr. Mglej’s first
name. (Gardner Deposition 39: 23-24; Gurle
Declaration ¶ 13, ECF No. 132-2.) When Mr. Mglej
came to the door, Officer Gardner asked if they could
talk outside, away from the door. (Gardner Deposition
40: 9-13.) Mr. Mglej agreed, and the two began to talk
outside the trailer.4 (Id. at 40: 18-23.) The parties
disagree about the nature of the area outside the
Gurle residence where Officer Gardner and Mr. Mglej
had this conversation. Officer Gardner describes the
area as a parking lot. (Gardner Declaration ¶ 14, ECF
No. 112.) Mr. Mglej describes “a front yard with hardpacked dirt where [the Gurles] keep a fire pit and
several lawn chairs.” (Mglej Declaration ¶ 8, ECF No.
132-3.) Mr. Gurle’s characterization of his residence
echoes Mr. Mglej’s description. (Gurle Declaration ¶ 7,
ECF No. 132-2.)
Officer Gardner told Mr. Mglej that he had
received a complaint from the Boulder Exchange, and
Mr. Mglej said he was not involved with the missing
money. (Plaintiff’s Response Brief 9, ECF No. 132.)
Officer Gardner stated that, nonetheless, he needed to
complete a report that required certain information
from Mr. Mglej, specifically Mr. Mglej’s full name,
date of birth, driver’s license information, and
draw all reasonable inferences in favor of Mr. Mglej as the
nonmoving party, the court concludes that on this record there is
no basis to conclude as a matter of law that Mr. Gurle conducted
commercial business on the property.
4 Officer

Gardner recalls that it was at this point that he
mirandized Mr. Mglej. (Gardner Deposition 46: 5-18.) Mr. Mglej
denies that Officer Gardner ever read him his Miranda rights.
(Mglej Deposition 61: 13-14.)

41a
address. (Id. at 10; Gardner Deposition 44: 2-3.)
Officer Gardner agreed in his deposition that he
believes he asked for Mr. Mglej’s ID. (Gardner
Deposition 41: 15-19.)
But Mr. Mglej did not believe Officer Gardner was
entitled to this information, and he did not want to
give it without first conferring with an attorney. (Id.
at 43: 15-16; Mglej Deposition 54: 12-17.) Officer
Gardner ‘s account is that he told Mr. Mglej he could
talk with an attorney, but first he had to disclose his
identity. (Gardner Deposition 43: 18-20.) And he did
not first provide Mr. Mglej the opportunity to contact
an attorney, because he “didn’t have a reasonable
expectation that [Mr. Mglej] knew of any attorney or
had a phone number for an attorney or had worked for
an attorney or had any kind of access to an attorney”
because he was “on a road trip that eventually led him
to Boulder, Utah.” (Id. at 44: 21-45: 3.) Instead, Officer
Gardner warned Mr. Mglej that if he was unwilling to
identify himself, he would be placed under arrest. (Id.
at 45: 14-18; 45: 25-46: 4.) When Mr. Mglej did not
answer, Officer Gardner arrested him, using
handcuffs even though Officer Gardner concedes that
Mr. Mglej was “cooperative physically” and did not
behave in a physically threatening manner.
(Plaintiff’s Response 11, ECF No. 132; Gardner
Deposition 46: 19-21, 47: 4-11.) He seated Mr. Mglej
in the front seat of his patrol vehicle. (Gardner
Deposition 52: 19-21.)
Mr. Mglej’s account of the pre-arrest encounter is
that while Officer Gardner was asking for his
information, Gardner was accusing him of taking the
money. (Mglej Deposition 57: 3-9.) “Feel[ing] very
uncomfortable,” Mr. Mglej refused to answer Officer

42a
Gardner’s questions without a lawyer and tried to call
a lawyer but, when he reached for his phone, Officer
Gardner said that if Mr. Mglej did not “put that phone
down right now” he was going to “wrestle [Mr. Mglej]
to the ground and tase [him].” (Mglej Deposition 58:
13-59: 4.) Mr. Mglej recalls that he was scared and
that the next thing he knew he was in handcuffs and
being put in the police car. (Id. at 60: 10-13.) Neither
party suggests that Officer Gardner ever attempted to
acquire a warrant before arresting Mr. Mglej.
Instead of going directly to the county jail, some
ninety miles away in Panguitch, Utah, Officer
Gardner decided to first stop at his home to change
out of his civilian clothes and into his uniform.
(Gardner Deposition 51: 2-5; Plaintiff’s Response 12;
ECF No. 132.) Officer Gardner provided no
information that the change was necessary, only that
he “thought it best” given the length of the drive. (Id.
at 51: 4.) While Officer Gardner went inside, Mr.
Mglej sat in the car alone with the doors unlocked,
limited only by a seat belt and his arms handcuffed in
the front. (Id. at 52: 22-53:2, 53: 25-54: 4.) Officer
Gardner’s family was inside the home, but he did not
fear Mr. Mglej would try to escape. (Id. at 54: 6-8, 60:
15-18.)
During his deposition, Officer Gardner testified
that he handcuffed Mr. Mglej “[p]er [Garfield County
Sheriff’s] department policy” that “whenever someone
is placed under arrest, they are handcuffed.” (Id. 46:
22-25.) He further stated that he had no discretion in
deciding whether to handcuff Mr. Mglej. (Id. 60: 1621.) In January of 2018, Officer Gardner
supplemented his declaration to inform the court that
it is his “practice to handcuff everybody [he] arrest[s]

43a
and transport[s] to jail.” (Gardner Supplemental
Declaration ¶ 1; ECF No. 137.) He has adopted this
policy because he is “stationed so far away from any
other law enforcement5 and must transport persons a
long distance to the jail, it is the safest practice for
[him] to always handcuff persons [he] arrest[s].” (Id.
¶ 2.) He does this for his safety and the safety of the
prisoner. (Id. ¶ 4.) And when he handcuffed Mr. Mglej,
both upon the initial arrest and re-handcuffing after
the incident in the garage, he did so “solely for safety
reasons.” (Id. ¶ 7.)
The Garfield County Sheriff’s Department Policy
related to handcuffing requires:6 “Handcuffs . . . may
be used only to restrain a person’s hands to ensure
officer safety.” (County Policy 306.4, ECF No. 132-6.)
It “recommend[s]” handcuffs “for most arrest
situations,” but reserves discretion to the officer to
decide whether the situation “warrants that degree of
restraint.” (Id.) The Policy continues that “deputies
should not conclude that in order to avoid risk every
person should be handcuffed, regardless of the
circumstances.” (Id.) It also makes clear that “[w]hen
feasible, handcuffs should be double-locked to prevent
tightening, which may cause undue discomfort or
injury to the hands or wrists.” (Id.) Finally,

5 The

court takes judicial notice that Garfield County, Utah is a
rural, sparsely populated, and far-reaching county and that
Boulder is in approximately the middle of the county..
6 The

version of the Policy manual that Mr. Mglej provided to the
court is dated May 29, 2015. It is not clear the May 2015 Policy
is the same as the Policy at the time of Mr. Mglej's arrest, but
Officer Gardner did not object to its foundation or authenticity in
his reply brief or at oral argument.

44a
“[h]andcuffs should be removed as soon as it is
reasonable or after the person has been searched and
safely confined within a detention facility.” (Id.)
When Officer Gardner returned to his car, now in
uniform, Mr. Mglej complained to him that the
handcuffs were too tight. (Id. at 54:12-14.) Mr. Mglej
contends he began complaining about the pain from
the handcuffs almost immediately. (Plaintiff’s
Response 17, ECF No. 132.) When Officer Gardner
noticed that Mr. Mglej’s hands were red, he first tried
to loosen them, but the cuffs malfunctioned and
needed to be removed. (Gardner Deposition 54: 18-25,
55: 15-56:1.) Not having the proper tools, Officer
Gardner believed he had to improvise and took Mr.
Mglej to his garage. (Id. at 57: 9-12; Gardner Affidavit
¶¶ 33-34.) Officer Gardner apparently made no
attempt to call for help from other officers in the
county nor did he attempt to find the proper tools in
town. Instead, in his garage, Officer Gardner used Mr.
Mglej’s hands as a fulcrum and employed various tools
in a trial-and-error fashion, including “hand drills,
different prongs, different pliers, different screw
drivers, and different presses.” (Mglej Deposition 75:
8-76: 18.) Eventually Officer Gardner put the
handcuffs in a vice grip and worked them free of Mr.
Mglej’s wrists using two screwdrivers to pop them
open in a manner that was extremely painful for Mr.
Mglej. (Id. at 79: 6-80:10.) Officer Gardner stated that
he did not know Mr. Mglej was in pain as he did not
verbalize or otherwise express discomfort or pain.
(Gardner Deposition 59: 6-11.) After removing the
faulty handcuffs, Officer Gardner put new handcuffs
on Mr. Mglej, returned to the car, and headed toward
Panguitch. (Mglej Deposition 81: 3-5, 81: 25-82: 3.)

45a
About half an hour into the two-hour drive to
Panguitch, Officer Gardner received a phone call from
the Boulder Exchange employee who had reported the
missing money.7 (Id. 82: 4-17.) She was calling to tell
him that after “a more thorough examination of the
till was made . . . the money was accounted for.”
(Gardner Deposition 63: 20-22.) Officer Gardner did
not, however, release Mr. Mglej upon receipt of the
phone call. (Id. at 64: 12-18.) Instead he continued on
to the Garfield County Jail where he referred to a
Utah Code book, completed a “no warrant fact sheet,”
and booked Mr. Mglej under two separate offenses:
obstructing justice and failure to disclose identity.8
(Id. at 64: 18-65: 9, 67: 10-21.)
According to Mr. Mglej, Officer Gardner did not
know what charge he intended to book Mr. Mglej
under until he got to the jail. (Mglej Deposition 86: 311.) Mr. Mglej alleges that when an officer at the jail
asked what Mr. Mglej was being booked for, Officer
Gardner responded, “I don’t know. Let me look in the
7 Officer

Gardner claims the call came one and a half hours into
his drive. (Gardner Deposition 63: 24-25.)
8 There

is no question that Officer Gardner did not have probable
cause to arrest Mr. Mglej for obstruction of justice. Officer
Gardner specifically listed Utah Code § 76-8-306(1)(i) as the
charge. It states: "An actor commits obstruction of justice if the
actor, with intent to hinder, delay, or prevent the investigation,
apprehension, prosecution, conviction, or punishment of any
person regarding conduct that constitutes a criminal offense:
conceals information that is not privileged and that concerns the
offense, after a judge or magistrate has ordered the actor to
provide the information." Utah Code § 76-8-306(1)(i) (emphasis
added). Because there was no order of a judge or magistrate, Mr.
Mglej could not, at the relevant time, have been guilty of this
crime.

46a
book. I’m sure I can find something.” (Id. at 86: 5-6.)
Officer Gardner contradicts Mr. Mglej’s testimony. He
says he knew at the time he decided to continue on to
the jail after receiving the second call from the
Boulder Exchange that he had arrested Mr. Mglej for
failure to disclose identity and that delays in the
booking process resulted from Mr. Mglej’s continued
refusal to answer questions.9 (Gardner Affidavit
¶¶ 40, 43.) This was the first time Officer Gardner had
ever arrested anyone with a failure to disclose
identity. (Gardner Deposition 62: 6-8.)
The following day, August 9, 2011, Judge Russell
Bulkley issued a Magistrate’s Order that approved
Officer Gardner’s Statement of Probable Cause for a
Warrantless Arrest and set bail for $1,000, reflecting
$500 for failure to disclose identity and $500 for
obstruction of justice. (Probable Cause Statement and
Order, ECF No. 112-1.) But Officer Gardner’s
statement, upon which the magistrate concluded
probable cause existed, did not assert any facts that
would show Mr. Mglej was arrested at a public place,
nor did the statement provide any facts that would
demonstrate the obstruction of justice. (Id.)
Mr. Mglej’s account of the conditions in jail include
taunts by jailers, deprivation of food he could safely
eat, and incarceration alongside troubled inmates who
harassed him. He told the guards he had a dairy
allergy; nevertheless, the guards fed him a sandwich
of cheese and mayonnaise and then proceeded to
include dairy in each of his remaining meals while in
9 It

is unclear to the court why this would be the case. Officers
had apparently confiscated Mr. Mglej's wallet during the booking
process and would have had access to his ID card.

47a
custody. (Mglej Declaration ¶ 15.) He also says that he
“was housed with another inmate who apparently
suffered from schizophrenia and alcoholism. The
guards refused to give the inmate his medication and
he started behaving erratically and aggressively
toward [Mr. Mglej],” causing him “intense mental and
emotional anguish.” (Id.)
Although bail was set on August 9, 2011, and Mr.
Mglej immediately asked for his wallet so he could pay
bail, the guards refused to give him his wallet until
two days later on August 11. (Mglej Declaration ¶ 14.)
At that time, they retrieved his wallet, and Mr. Mglej
paid his bail by credit card. (Id.; Bail Payments, ECF
No. 111-1.) Defendants provide no explanation for the
two-day delay in Mr. Mglej’s bail payment and
release, although he apparently had the means to pay
bail immediately. When Mr. Mglej was finally
permitted to pay bail, he was released but not
provided any transportation from Panguitch to
Boulder. (Mglej Declaration ¶ 16.) Instead he “had to
hitchhike back to Boulder. When [he] arrived [he]
found that [his] bike had been vandalized by joyriders
and that [his] possessions, including a digital camera,
GPS, and video camera, had been stolen.” (Id.)
Eventually all charges against Mr. Mglej were
dropped (Mglej Deposition 100: 15-101: 9). But he
contends he sustained damages from the arrest and
initial prosecution. He was deprived of his liberty for
several days. His damages also include lost property
as previously detailed but also physical damage to his
arms resulting from the handcuffing. He describes
lasting “burning pain and numbness in [his] fingers
that radiated up [his] arm to the elbow. (Mglej
Declaration ¶ 17.) He has also “experienced

48a
significant emotional distress as a result of this
ordeal. [He] suffer[s] from Asperger’s Disorder,
anxiety, and PTSD. . . . However, the events the
Boulder [sic] in August 2011 have exacerbated [his]
symptoms, causing panic attacks, loss of sleep,
general anxiety, and flash backs.” (Id. ¶ 18.)
STANDARD

Summary judgment is proper when the moving
party demonstrates that there is no genuine issue of
material fact and that it is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(a). A material fact is
one that may affect the outcome of the litigation. See
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248,
106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986). The moving
party bears the initial burden of showing an absence
of evidence to support the nonmoving party’s case.
Celotex Corp. v. Catrett, 477 U.S. 317, 325, 106 S. Ct.
2548, 91 L. Ed. 2d 265 (1986). “Once the moving party
meets this burden, the burden shifts to the nonmoving
party to demonstrate a genuine issue for trial on a
material matter.” Id. The nonmoving party may not
rest solely on allegations on the pleadings, but must
instead designate “specific facts showing that there is
a genuine issue for trial.” Id. at 324. The court must
“view the evidence and draw reasonable inferences
therefrom in a light most favorable to the nonmoving
party.” Commercial Union Ins. Co. v. Sea Harvest
Seafood Co., 251 F.3d 1294, 1298 (10th Cir. 2001).
ANALYSIS

When an individual believes his or her
constitutional rights have been violated by a member
of the government, he or she may bring a claim under
42 U.S.C. § 1983. Section 1983 exists to “protect the

49a
people from unconstitutional action under color of
state law.” Patsy v. Bd. of Regents, 457 U.S. 496, 503,
(1982). It does so by creating a federal cause of action
for the deprivation of constitutionally secured rights.
Town of Castle Rock v. Gonzales, 545 U.S. 748, 755,
(2005). Here Mr. Mglej has asserted that the various
Defendants violated his Fourth, Eight and Fourteenth
Amendment rights. (Complaint, ECF No. 2.) Mr.
Mglej alleges violations committed by individuals,
specifically Officer Gardner as well as unnamed
officers at the Garfield County Jail, and against the
County and the County Sheriff. Because county
liability depends in part on individual liability, the
court first analyzes whether any individual could be
held liable for the purported violations and then
addresses the issue of county liability.
I. Individual Liability

On summary judgment, Officer Gardner argues he
is immune from suit under the doctrine of qualified
immunity. (Motion, ECF No. 111.) When a defendant
raises a qualified immunity defense, the burden shifts
to the plaintiff to demonstrate “‘(1) that the
defendant’s actions violated a constitutional or
statutory right, and (2) that the right allegedly
violated was clearly established at the time of the
conduct at issue.’” Lee v. Tucker, 904 F.3d 1145, 1148
(10th Cir. 2018) (quoting Mick v. Brewer, 76 F.3d
1127, 1134 (10th Cir. 1996)). “Under this test,
‘immunity protects all but the plainly incompetent or
those who knowingly violate the law.’” Grissom v.
Roberts, 902 F.3d 1162, 1167 (10th Cir. 2018) (quoting
Kisela v. Hughes, 138 S.Ct. 1148, 1152, (2018)).
A. Fourth
Detention

Amendment

Unlawful

Arrest

and

50a
Mr. Mglej’s first cause of action alleges that while
acting under the authority of Garfield County and the
Sheriff’s Office, Officer Gardner arrested him without
probable cause and continued to detain him even after
learning that in fact no crime had been committed.
(Complaint ¶¶ 90-105.) An arrest is unlawful and in
violation of the Fourth Amendment if it is not based
on probable cause. United States v. Rodriguez, 739
F.3d 481, 485 n.2 (10th Cir. 2013). “Probable cause
exists where the facts and circumstances known to the
officer at the time of arrest, and of which the officer
had reasonably trustworthy information, were
sufficient to warrant a prudent person in believing
defendant had committed or was committing a
criminal offense.” Id. An officer may not have acted on
probable cause where there is insufficient information
or inadequate corroboration or where his or her
conduct amounted to “‘clos[ing] her or his eyes to the
facts that would help clarify the circumstances of an
arrest.’” Cortez v. McCauley, 478 F.3d 1108, 1116-17
(10th Cir. 2007) (quoting BeVier v. Hucal, 806 F.2d
123, 128 (7th Cir. 1986)).
Thus, the court must determine “whether a
‘substantial probability’ existed that the suspect
committed the crime, requiring something ‘more than
a bare suspicion.’” Kerns v. Bader, 663 F.3d 1173,
1188 (10th Cir. 2011) (internal citation omitted)
(quoting United States v. Ludwig, 641 F.3d 1243, 1252
(10th Cir. 2011)). When evaluating whether probable
cause supported an arrest, the court must “ask
whether an objectively reasonable officer could
conclude that the historical facts at the time of the
arrest amount to probable cause,” Cortez, 478 F.3d at
1116, and must consider “facts supporting probable
cause,” as well as “those that militate against it.”

51a

United States v. Valenzuela, 365 F.3d 892, 897 (10th
Cir. 2004).

In Cortez v. McCauley, the Tenth Circuit
concluded that officers did not rely on probable cause.
478 F.3d at 1117. There, officers grabbed a suspect
from his home in the middle of the night while he was
wearing only shorts, handcuffed him, mirandized him,
locked him in the back of a police car, and questioned
him there. Id. at 1116. Officers were investigating an
alleged sexual assault on a child. Id. at 1113. But the
only evidence of the crime, or that the accused had
committed it, was the statement of a distressed twoyear old “that her babysitter’s ‘boyfriend’ had ‘hurt her
pee pee.’” Id. Without any further investigation—
without waiting for results of medical exam, without
interviewing the alleged victim or her mother, and
without ever attempting to obtain a warrant—officers
went to the accused’s home and executed the arrest.
Id. The Tenth Circuit, sitting en banc, unanimously
concluded that officers’ efforts were inadequate to
support a finding of probable cause.
Here, Officer Gardner did not have probable cause
to believe that a crime occurred or to suspect that Mr.
Mglej committed any such crime. He received a phone
call from Dispatch, which he attempted to corroborate
by calling the source—the Boulder Exchange—but he
gathered no more information. He had the statement
of one witness that, upon a “quick cursory check,” it
appeared twenty dollars were missing and that Mr.
Mglej had been in the store and made an employee
“uncomfortable.” As in Cortez, Officer Gardner did not
conduct even the most basic corroborating
investigation. He did not go to the Boulder Exchange,
he did not inquire about whether there were other

52a
customers in the Boulder Exchange, he did not ask the
employee to recount the till, he did not inquire about
why Mr. Mglej’s behavior made the employee
uncomfortable, he did not ask whether anyone had
seen Mr. Mglej at or near the till, and he did not
interview Mr. Mglej about the purported theft before
arresting him. In other words, he did not have
“reasonably trustworthy information” to justify
arresting Mr. Mglej for the theft. But even if he
initially had probable cause for the arrest, the postarrest phone call notifying Officer Gardner that all of
the money was accounted for vitiated any reasonable
belief that Mr. Mglej stole from the Boulder Exchange.
Therefore, from the outset he did not have probable
cause to arrest Mr. Mglej for the purported theft, but
even if he had, he could not base the continued
detention on suspicion of theft after he received the
second call.
Officer Gardner argues, however, that he also
arrested Mr. Mglej for the crime of failure to disclose
identity and that probable cause existed for that
charge, even if it did not exist for the theft. The Utah
Code permits an officer to arrest a person for failure
to disclose identity if, “during the period of time that
the person is lawfully subjected to a stop as described
in Section 77-7-15“ the following elements are met:
(a) a peace officer demands that the person
disclose the person’s name; the demand
described is reasonably related to the
circumstances justifying the stop; (c) the
disclosure of the person’s name by the person
does not present a reasonable danger of selfincrimination in the commission of a crime; and

53a
(d) the person fails to disclose the person’s
name.
Utah Code §§ 77-7-2 & 76-8-301.5. A person is lawfully
stopped under § 77-7-15 if the stop occurs “in a public
place when the officer has a reasonable suspicion to
believe the person has committed or is in the act of
committing or is attempting to commit a public
offense and [to] demand the person’s name, address,
and an explanation of the person’s actions.” Id. § 77-715.10
Mr. Mglej argues Officer Gardner could not have
had probable cause to arrest him for failure to disclose
identity because the arrest did not occur in a public
place, Officer Gardner did not demand Mr. Mglej’s
name but instead asked for his ID, Officer Gardner’s
demand for Mr. Mglej’s name was not reasonably
related to the circumstances justifying the stop, and
Officer Gardner did not actually believe at the time of
the arrest that these elements were met but only
surmised after the fact of Mr. Mglej’s arrest during
booking at the Garfield County jail. There is record
evidence that supports Mr. Mglej’s arguments.
There is strong evidence that the stop, leading to
the arrest, occurred in the Gurle’s private yard, not a
public place. Mr. Mglej testified that the area was a
hard-packed driveway with lawn chairs and a fire pit,

10 In

other words, an officer who is properly conducting an
investigatory stop in a public place may require the stopped
person to communicate his or her name, address, and an
explanation of his or her actions. And if the person refuses to
provide his or her name, the officer may move to arrest the
individual so long as the demand is reasonably related to the
stop.

54a
and Mr. Gurle described the area in the same manner.
Mr. Gurle also declared that he conducts no
commercial business at his residence. The only
evidence to the contrary is Officer Gardner’s
statement of his unsupported belief that Mr. Gurle
conducted business there.11 At oral argument on the
Motion, Officer Gardner’s counsel implored the court
to infer the Gurle’s residence is a public place based
on the various cars that are visible in an areal shot of
the property, taken some time after the event. It is not
the court’s role, on summary judgment, to weigh these
facts and decide which statements are more credible
and which position is more likely true. Instead,
because an arrest for failure to disclose identity is only
proper if the failure occurred during a stop in a public
place, the court concludes this factual dispute is
material to resolution of Mr. Mglej’s unlawful arrest
claim.
There is also evidence to support Mr. Mglej’s
argument that Officer Gardner asked for and arrested
Mr. Mglej for failure to provide his driver’s license

11 The

court notes that Officer Gardner's statements about what
kind of business occurred at Belnap Rental have changed over
the course of this action. In his deposition, Officer Gardner stated
that Chuck Gurle is a mechanic whose "primary place of business
is off Highway 12, approximately two miles from his residence"
but who "does do some business at [his residence.]" (Gardner
Deposition 38: 19-39: 15.) His deposition characterized Belnap
Rental as "the name given" to the property where "Chuck rents
[his] trailer," which is owned by "absentee property owners with
the last name of Belnap." (Id. at 39: 1-6.) He then answered
affirmatively that "Belnap Rental is not a business." (Id. at 39:
7-11.) In his declaration, however, Officer Gardner stated
"Belnap Rental is a small agricultural rental business run by
Chuck Gurle." (Gardner Declaration ¶ 13, ECF No. 112.)

55a
information, not for failure to state his name. Officer
Gardner has acknowledged that he asked for Mr.
Mglej’s ID and told Mr. Mglej he was required to
provide “basic information” including “name, date of
birth, driver’s license information, address.” (Gardner
Deposition 43-44, ECF No. 132-4.) The law did not
permit Officer Gardner to arrest Mr. Mglej for failure
to provide any information other than his name. And
there is at least a reasonable inference, which must be
drawn in favor of Mr. Mglej as the nonmoving party,
that Officer Gardner was not arresting for failure to
provide a name, given that he acknowledges he
already knew Mr. Mglej’s first name. A jury
conclusion to this effect would be further supported if
it accepted Mr. Mglej’s account of his first encounter
with Officer Gardner on the roadside during which,
Mr. Mglej contends, he gave Officer Gardner his full
name and ID card. Similarly there is a question as to
whether Officer Gardner’s demand for Mr. Mglej’s
name was reasonably related to the circumstances of
the stop. Officer Gardner knew Mr. Mglej’s name and
did not need it for investigatory purposes, or at least
he has not stated a need. These are all factual issues
that are material and therefore properly decided by a
jury.
Even if the demand for Mr. Mglej’s identity
occurred in a public place and was reasonably related
to the investigative stop, there is conflicting evidence
about whether Officer Gardner suspected Mr. Mglej of
the crime of failure to disclose identity during the
portion of his detention between the second Boulder
Exchange phone call and the Panguitch jail. When
assessing probable cause, the relevant inquiry is
whether the “‘facts known to the arresting officer at
the time of the arrest’” would prompt an objectively

56a
reasonable officer to believe the individual in question
had committed the offense. See Buck v. City of
Albuquerque, 549 F.3d 1269, 1281 (10th Cir. 2008)
(quoting Devenpeck v. Alford, 543 U.S. 146, 152,
(2004)). Officer Gardner has stated he believed at the
time he received the phone call that Mr. Mglej had
committed the crime of failure to disclose identity. Mr.
Mglej on the other hand contends that he observed
Officer Gardner ask for and peruse the Utah Code
book in search of a charge when they got to the jail.12
Mr. Mglej’s statement supports the conclusion that at
the time of the arrest Officer Gardner did not know
that failure to disclose identity was an arrestable
offense, that he did not, therefore, have probable
cause to arrest him for such a charge. This is yet
another factual dispute that must be decided by a
jury.
Whether the jury agrees with Mr. Mglej that the
elements of the charge of failure to disclose identity
could not have been met or that Officer Gardner did
not know the facts necessary to arrest him for failure
to disclose identity at the time of the arrest, it could
conclude that the arrest was made without probable
cause. Therefore, Mr. Mglej has raised questions of
fact material to the probable cause inquiry such that
his claim should survive summary judgment.
Nevertheless, because Officer Gardner has raised
the defense of qualified immunity, the court must
decide whether “the right was clearly established

12 Although

an out of court statement, Mr. Mglej's account of
Officer Gardner's statement is not hearsay because Officer
Gardner is a named defendant in this action and therefore a
party opponent. See Fed. R. Evid. 801(d)(2).

57a
when the alleged violation occurred.” Cortez, 478 F.3d
at 1117. To satisfy the second prong of the qualified
immunity analysis, a plaintiff must show that “[t]he
rule’s contours [are] so well defined that it is ‘clear to
a reasonable officer that his conduct was unlawful in
the situation he confronted.’” D.C. v. Wesby, 138 S. Ct.
577, 590 (2018) (quoting Saucier v. Katz, 533 U.S. 194,
202 (2001)). In other words, precedent must “be clear
enough that every reasonable official would interpret
it to establish the particular rule the plaintiff seeks to
apply.” Id. It is sufficient to rely on “[general
statements of law’” where they “clearly establish a
right for qualified immunity purposes if they apply
‘with obvious clarity to the specific conduct in
question.’” Halley v. Huckaby, 902 F.3d 1136, 1149
(10th Cir. 2018). In other words, “[q]ualified immunity
leaves ‘ample room for mistaken judgments,’
protecting ‘all but the plainly incompetent or those
who knowingly violate the law.’” Moore v. Godsil, 505
F. App’x 780, 783 (10th Cir. 2012) (quoting Malley v.
Briggs, 475 U.S. 335, 341 (1986).
Here the law was clearly established: Officer
Gardner could only arrest Mr. Mglej if he had
probable cause to suspect him of the crime alleged,
and he does not dispute that requirement. “The law
was and is unambiguous: a government official must
have probable cause to arrest an individual.” Cortez,
478 F.3d at 1117. As to the arrest for the theft, Cortez
made clear that this right includes the requirement
that officers conduct some minimal investigation in
order to evaluate probable cause. Specifically the
Court concluded that at the time of the arrest in
question, “it was established law that ‘the probable
cause standard of the Fourth Amendment requires
officers to reasonably interview witnesses readily

58a
available at the scene, investigate basic evidence, or
otherwise inquire if a crime has been committed at all
before invoking the power of warrantless arrest and
detention.’” Id. (quoting Romero v. Fay, 45 F.3d 1472,
1476-77 (10th Cir. 1995)). Cortez predates the arrest
now before the court; therefore, there is no question
that the right not to be arrested for a crime for which
the officer has conducted no meaningful investigation
existed at the time of these events.
Regarding the arrest allegedly for the failure to
disclose identity, the law requiring probable cause
was unambiguous as was the law requiring officers to
have knowledge of facts supporting probable cause at
the time of the arrest. Id. at 1116. Similarly, the
requirement that the failure to disclose identity occur
in a public place for arrest to be proper is defined by
statute and the distinction between a public place and
a private residence is a matter of common sense, at
least in the context of a residence and under the facts
of this case. Therefore, if a jury were to believe Mr.
Mglej and Mr. Gurle’s characterization of the property
and assertions that no commercial business is
conducted there, Officer Gardner could not have
probable cause to believe he could arrest Mr. Mglej for
failure to disclose identity because he was on private
property. See Moore v. Godsil, 505 F. App’x 780, 784
(10th Cir. 2012) (“Here, the district court specifically
noted the conflicting material facts related to the
incident and articulated how these conflicting facts
prevented a finding of probable cause. Viewing the
facts in the light most favorable to plaintiff as the
nonmoving party, which the court must do when
considering summary judgment, a reasonable officer
could have believed that he did not have probable
cause to arrest plaintiff under clearly established

59a
law.”). Mr. Mglej’s account of the facts is one of plain
incompetence and failure to know the otherwise
clearly established law that, if believed, would
preclude Officer Gardner from immunity. should not
be permitted to avoid liability because he simply did
not know the otherwise clearly established law.
B. Fourth Amendment Excessive Force

Mr. Mglej’s second cause of action alleges that
Officer Gardner used excessive force by handcuffing
him so tightly that it caused Mr. Mglej physical pain
and loss of feeling in his hands and by taking Mr.
Mglej to his garage and removing the handcuffs
without the proper tools. (Complaint ¶¶ 106-117.) To
survive summary judgment where Defendants have
raised the claim of qualified immunity, Mr. Mglej
must “show that the force used was impermissible (a
constitutional violation) and that objectively
reasonable officers could not have not thought the
force constitutionally permissible (violates clearly
established law).” Cortez, 478 F.3d at 1128.
In assessing the reasonableness of the force Officer
Gardner used, the court must balance “‘the nature
and quality of the intrusion’” on Mr. Mglej’s interests
“against the countervailing governmental interests at
stake.” Graham v. Connor, 490 U.S. 386, 397 (1989).
It is Mr. Mglej’s burden to show (1) that Officer
Gardner “used greater force than would have been
reasonably necessary to effect a lawful seizure” and
(2) that he suffered “some actual injury” as a result of
“the unreasonable seizure that is not de minimis, be it
physical or emotional.” Cortez, 478 F.3d at 1129. The
reasonableness of the officer’s conduct is a fact specific
inquiry, which includes consideration of “the severity
of the crime at issue, whether the suspect poses an

60a
immediate threat to the safety of the officers or others,
and whether he is actively resisting arrest or
attempting to evade arrest by flight.” Id. at 1125
(quoting Graham, 490 U.S. at 396). Force is not
excessive if the officer’s actions were “‘objectively
reasonable’ in light of the facts and circumstances
confronting them.” Graham, 490 U.S. at 397 (1989).
“An officer’s evil intentions will not make a Fourth
Amendment violation out of an objectively reasonable
use of force; nor will an officer’s good intentions make
an
objectively
unreasonable
use
of
force
constitutional.”
Id. Here the circumstances
surrounding Mr. Mglej’s arrest justified only the most
minimal force and the use of handcuffs was objectively
unreasonable.
The force Officer Gardner used was not reasonable
considering the circumstances. Because Officer
Gardner lacked probable cause to believe a crime had
occurred, any effort to constrain Mr. Mglej’s liberty
would have been excessive force, as demonstrated by
an analysis of the Graham factors. Mr. Mglej was
alleged to have stolen twenty dollars. It was a petty
offense, not a serious crime, even if it had happened,
which it did not, the alleged theft did not in any way
suggest Mr. Mglej was violent or likely to flee. And
while Mr. Mglej refused to provide his name and/or ID
as requested, he did not actively resist arrest nor did
his conduct suggest he was likely to flee. And certainly
the episode at Officer Gardner’s home, in which Mr.
Mglej sat in the unlocked car, fully undermines any
belief Officer Gardner may have had about Mr. Mglej
fleeing when he handcuffed Mr. Mglej the second
time. In sum, none of the factors to be considered
support Officer Gardner’s claim that he reasonably
used handcuffs to arrest Mr. Mglej.

61a
Officer Gardner argues, instead, that because the
use of handcuffs have been deemed reasonable during
investigative searches, that of course they are
reasonable during an arrest and he had a practice of
handcuffing all arrestees. But neither of these
arguments is persuasive. While some courts have
found handcuffing appropriate, they did so in the
context of the facts and circumstances before them,
which are distinct from these. For instance, in the case
to which Officer Gardner cites to support the
proposition that handcuffing is proper during an
investigative detention, Muehler v. Mena, 544 U.S. 93
(2005), officers were investigating “a gang-related,
drive-by shooting” and officers had reason to believe
one of the gang members lived at the house they were
searching. Id. at 95. They further suspected the
wanted individual was “armed and dangerous.” Id.
When they searched the residence, they did so using a
SWAT team and handcuffed the four occupants and
then detained them in the garage, including the
plaintiff, using handcuffs. Id. at 96.
In Muehler, the Supreme Court concluded that the
use of handcuffs to restrain were under these
circumstances reasonable, but the court emphasized
three important details that make the analysis
inapposite to this case. First, the search was pursuant
to a warrant and officers have categorical authority to
detain during a search pursuant to a warrant, so the
initial detention was appropriate, making the
handcuffing a minimal further intrusion. Id. at 99.
Second, the Court noted that “this was no ordinary
search” and that “governmental interests in . . . using
handcuffs[] are at their maximum when . . . a warrant
authorizes a search for weapons and a wanted gang
member resides on the premises” because of the “risk

62a
of harm to both officers and occupants.” Id. at 100.
Third, the court noted that “the need to detain
multiple occupants made the use of handcuffs all the
more reasonable.” Id.
The facts of this case are nothing like those in

Muehler. Mr. Mglej was the only potential suspect

present, he was not violent or suspected of violence,
and no search warrant minimized the intrusion as it
did in Muehler. Muehler does, however, demonstrate
an important point in evaluating the use of force:
officers must in the moment, and courts must on
review, look to the specific facts of an encounter and
not make categorical conclusions and inferences like
the one Officer Gardner advocates. While it is true
that handcuffing is sometimes appropriate in the
context of an investigative detention, Muehler does
not stand for the proposition that it is always
appropriate during either an investigative detention
or an arrest. See Fisher v. City of Las Cruces, 584 F.3d
888 (10th Cir. 2009) (finding issues of fact existed for
a jury to decide the reasonableness of the use of
handcuffs where an arrestee had shot himself in the
stomach and left bicep before police arrived on scene
and was no longer in possession of the firearm when
they arrived even though the plaintiff had resisted
arrest). Thus, Muehler does not affect the court’s
conclusion that Mr. Mglej has stated facts from which
a reasonable jury could conclude Officer Gardner used
excessive force in arresting him.
And the law was clearly established. Officer
Gardner knew he was obligated to make a case
specific determination under both Graham and
Garfield County policy. But he abdicated that
requirement. Although the Graham factors do not “by

63a
themselves create clearly established law outside an
‘obvious case,’” Kisela v. Hughes, 138 S.Ct. 1148,
(2018), the facts at bar are exceptional. As shown
above, none of the Graham factors can be read to
support a conclusion that force was appropriate. But
even if application of the Graham factors to this case
was not so obvious as to clearly establish the law,
Graham’s requirement that all uses of force must be
objectively reasonable under “the facts and
circumstances of each particular case” is clearly
established. Graham, 490 U.S. at 396-97. In other
words, the law clearly established Officer Gardner’s
obligation to make an individualized determination of
his use of force, even if the result of that
individualized determination was not clearly
established. Therefore, Officer Gardner’s failure to
make a case-specific determination, and the
objectively unreasonable use of force by handcuffing a
compliant man for suspicion of theft of twenty dollars,
was a violation of a clearly established right.
Even though Officer Gardner’s use of force alone
was sufficient to satisfy the Graham factors and the
law was clearly established, the Tenth Circuit has
held that “in nearly every situation where an arrest is
authorized, or police reasonably believe public safety
requires
physical
restraint,
handcuffing
is
13
appropriate.” See Fisher, 584 F.3d at 896 (10th Cir.

13 The

facts of this case suggest it may be the exceptional
circumstance in which handcuffing is not appropriate and the
plaintiff is, therefore, not required to show an injury. See id. at
896-97. Officer Gardner handcuffed Mr. Mglej based on his
mistaken belief that departmental policy required him to do so,

64a
2009). Therefore, the Tenth Circuit has concluded
that a plaintiff claiming improper handcuffing must
show some actual injury that is not de minimis. Id. at
897-98 (finding the plaintiff had alleged an injury
sufficient for the issue to go to the jury).
Here Mr. Mglej has alleged he suffered injuries as
a result of the tightness including pain and numbness
in his fingers that radiates up to his elbows. (Mglej
Declaration ¶ 17, ECF No. 132-3.) Although his
declaration and the limited medical records he
provides are not overwhelming support of a
satisfactory injury, they provide some evidence from
which a jury could conclude that he was injured by
Officer Gardner’s attempts to manipulate and remove
the handcuffs without the proper tools and,
apparently, without regard for further injury to Mr.
Mglej in the process. Officer Gardner has not argued
that Mr. Mglej’s injury was insufficient to survive
summary judgment, and the court will not conclude as
much here. Further, the right not to be handcuffed in
a manner that was unduly tight or that otherwise
caused injury was clearly established by Fisher. See
also Vondrak v. City of Las Cruces, 535 F.3d 1198,
1209-10 (10th Cir. 2008) (concluding officers were not
entitled to qualified immunity where plaintiff alleged
that he suffered from unduly tight handcuffs, that
not because he believed public safety required the restraint. And
although he did arrest Mr. Mglej, there are questions of fact that
call into question whether the arrest was authorized. Finally,
Defendants have not argued that an injury was required under
these circumstances. But even if an injury is required, Mr. Mglej
has adequately alleged such an injury as shown herein. The
determination turns not on what Officer Gardner may have
subjectively believed, but on what a reasonable officer would
accept in light of clearly established County policy.

65a
officers ignored his timely complaints, that his wrists
began to bleed while he was handcuffed, that the pain
had persisted, and that he had been diagnosed with
permanent nerve damage); Cortez, 478 F.3d at 1129
(“[U]nduly tight handcuffing can constitute excessive
force where a plaintiff alleges some actual injury from
the handcuffing and alleges that an officer ignored a
plaintiff’s timely complaints (or was otherwise made
aware) that the handcuffs were too tight,” but the
injury must something more than “red marks that
were visible for days.”). Therefore, the court cannot
decide as a matter of law that Mr. Mglej was not
subject to excessive force nor can it conclude that
Officer Gardner is entitled to immunity from liability
for such a claim.
C. Fourth and Fourteenth Amendment Malicious
Prosecution

Mr. Mglej next contends that he suffered damages
as a result of Officer Gardner’s conduct which he
alleges amount to malicious prosecution. (Complaint
¶¶ 118-24, ECF No. 2.) When analyzing a malicious
prosecution claim in a § 1983 action, the court
considers the elements of the common law malicious
prosecution claim but must ultimately determine
“whether plaintiff has proven a deprivation of a
constitutional right.” Novitsky v. City of Aurora, 491
F.3d 1244, 1257-58 (10th Cir. 2007). “A malicious
prosecution claim brought under the Fourth
Amendment requires a showing that ‘(1) the
defendant
caused
the
plaintiff’s
continued
confinement or prosecution; (2) the original action
terminated in favor of the plaintiff; (3) no probable
cause supported the original arrest, continued
confinement, or prosecution; (4) the defendant acted

66a
with malice; and (5) the plaintiff sustained damages.’”
Stonecipher v. Valles, 759 F.3d 1134, 1146 (10th Cir.
2014) (quoting Wilkins v. DeReyes, 528 F.3d 790, 799
(10th Cir.2008)).
Officer Gardner contests only the third and fourth
elements, arguing that Officer Gardner had probable
cause to arrest Mr. Mglej and that he did not act
maliciously when he did so. (Motion 7, ECF No. 111.)
But as the court has already analyzed, there are
disputes of fact material to the probable cause
analysis and therefore summary judgment is not
appropriate. And because “[m]alice may be inferred if
a defendant causes the prosecution without arguable
probable cause,” Stonecipher, 759 F.3d at 1146, the
court cannot evaluate whether Officer Gardner acted
with malice without resolution of the disputed facts
related to probable cause. And because there are
disputes of material fact, the court cannot yet assess
whether the right was clearly established at the time
of the arrest. See Nosewicz v. Janosko, No. 18-1139,
754 Fed. Appx. 725, 2018 U.S. App. LEXIS 30665,
2018 U.S. App. LEXIS 30665, 2018 WL 5617756, at *8
(10th Cir. Oct. 30, 2018) (“Accordingly, genuine
material disputed facts prevent a finding that
defendant breached his duty under the Fourth
Amendment or is entitled to qualified immunity.”).
D. Eighth Amendment Denial of Bail

Mr. Mglej next alleges that Doe Officers of the
Garfield County Jail denied him the right to post bail.
(Complaint ¶¶ 125-36, ECF No. 2.) He does not allege
facts that link Officer Gardner to the denial of his bail
nor has he come forward with evidence of such a link
on summary judgment. And while he asserts
compelling facts related to the officers at the jail, he

67a
has made no apparent attempt to identify the alleged
Doe Defendants, he has never sought leave of the
court to name them, and the court has by this decision
dismissed them. See Didymus v. Bivens, Case No.
3:09-cv-62, 2011 U.S. Dist. LEXIS 1005, 2011 WL
32207, at *7-*9 (E.D. Tenn. Jan. 5, 2011). In other
words he contends his rights were violated, but he
does not identify any responsible party. Assuming he
intends for the County Defendants to be held liable for
the conduct of its agents, there is no county liability
as a matter of law. Therefore, summary judgment is
proper as to this claim.
E. Eight Amendment Cruel and Unusual Punishment

Finally, Mr. Mglej brings an Eight Amendment
cruel and unusual punishment claim against each of
the various Defendants. (Complaint ¶¶ 137-150,
Complaint 2.) He alleges various violations related to
the conditions of his detention at the Garfield County
jail. Mr. Mglej’s description of his detention is deeply
troubling. But Mr. Mglej was not at the relevant time
a convicted prisoner, and cruel and unusual
punishment is therefore not an available cause of
action. See Lopez v. LeMaster, 172 F.3d 756, 759 n.2
(10th Cir. 1999). But Mr. Mglej now argues that the
Eight Amendment analysis for convicted prisoners is
the same analysis as the Fourteenth Amendment Due
Process Analysis, which applies to pretrial detainees
like Mr. Mglej. See id. While the court is not
persuaded that Mr. Mglej can reform his Complaint
through his summary judgment papers, the court
need not address the question of whether he can
proceed with the claim, because even if he had pled
the proper Amendment, he has not identified a
responsible individual defendant nor has he set forth

68a
a theory for county liability. Therefore, summary
judgment is proper.
II. County Liability

Having conclude that Mr. Mglej has provided a
factual basis to conclude Officer Gardner violated his
Fourth Amendment rights, the court must now turn
to the question of whether any County Defendant can
be held responsible. “[A] municipality cannot be held
liable solely because it employs a tortfeasor—or, in
other words, a municipality cannot be held liable
under § 1983 on a respondeat superior theory.” Monell
v. Dep’t of Soc. Servs. of City of New York, 436 U.S.
658, 691 (1978). It can, however, be held liable “for
[its] own unlawful acts” if the plaintiff shows “the
existence of a municipal policy or custom which
directly causes the alleged injury.” Pyle v. Woods, 874
F.3d 1257, 1266 (10th Cir. 2017). The policy or custom
requirement is met if plaintiff can show the violative
conduct was pursuant to “a formal regulation or policy
statement, an informal custom that amounts to a
widespread practice, decisions of municipal employees
with final policymaking authority, ratification by final
policymakers of the decisions of subordinates to who
authority was delegated, and the deliberately
indifferent failure to adequately train or supervise
employees.” Id. Mr. Mglej has not plausibly identified
a policy that can be imputed to Garfield County, the
Garfield County Sheriff’s Department, or the Garfield
County Jail.
Mr. Mglej argues that the county can be held liable
for the conduct of Officer Gardner as well as the Doe
defendants because “the facts . . . show the County
exhibited deliberate indifference in its failure to train
and supervise municipal employees.” (Plaintiff’s

69a
Response 48, ECF No. 132.) Specifically, he alleges
that the “egregious” nature of the violations reveals
the County’s failures. (Id.) In order to make out a
claim for “deliberate indifference for purposes of
failure to train,” a plaintiff must ordinarily show “[a]
pattern of similar constitutional violations by
untrained employees.” . Connick v. Thompson, 563
U.S. 51, 62 (2011). In other words, the municipality
must have some notice that its “training is deficient in
a particular respect” and ignore the deficiency. But he
does not point to any specific conduct that can be
attributed to any of the County Defendants, much less
a pattern of indifference resulting in violations
sufficient to put the county on notice and trigger
liability. Because Mr. Mglej has not shown that
Officer Gardner’s conduct was pursuant to a County
policy or custom, the County Defendants cannot be
held liable and are dismissed from this action.

70a
CONCLUSION

Therefore, the court dismisses the Doe Defendants
and GRANTS Defendants’ Motion for Summary
Judgment with regard to the County Defendants. It
also GRANTS Defendants’ Motion as to the Eight
Amendment Denial of Bail and Cruel and Unusual
Punishment claims. But it DENIES Summary
Judgment of the Fourth Amendment claims for
unlawful arrest, excessive force, and malicious
prosecution because there are disputes of material
fact. The court will hold a status conference on
January 31, 2019, at 2:30 p.m. to set a trial date.
DATED this 10th day of January, 2019.
BY THE COURT:
/s/ Clark Waddoups
Clark Waddoups
United States District Court Judge

71a
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
___________________
No. 19-4015
D.C. Docket No. 2:13-CV-00713-CW-DBP
MATTHEW T. MGLEJ,
PLAINTIFF-APPELLEE,
V.

RAYMOND GARDNER, A/K/A/ OFFICER RAYMOND, AN
OFFICER OF THE GARFIELD COUNTY SHERIFF’S OFFICE,
IN BOTH HIS INDIVIDUAL AND OFFICIAL CAPACITIES,

DEFENDANT-APPELLANT.
___________________
ORDER
[October 26, 2020]
___________________

Appeal from the United States District Court
for the District of Utah

72a
Before BRISCOE, EBEL, AND HARTZ, Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was
transmitted to all of the judges of the court who are in
regular active service. As no member of the panel and
no judge in regular active service on the court
requested that the court be polled, that petition is also
denied.
Entered for the Court
CHRISTOPHER M. WOLPERT, Clerk

